<html>
<title> - THE DELAWARE RIVER OIL SPILL</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                      THE DELAWARE RIVER OIL SPILL

=======================================================================

                                (109-1)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 18, 2005

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
20-869                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             ROBERT MENENDEZ, New Jersey
VERNON J. EHLERS, Michigan           CORRINE BROWN, Florida
SPENCER BACHUS, Alabama              BOB FILNER, California
STEVEN C. LaTOURETTE, Ohio           EDDIE BERNICE JOHNSON, Texas
SUE W. KELLY, New York               GENE TAYLOR, Mississippi
RICHARD H. BAKER, Louisiana          JUANITA MILLENDER-McDONALD, 
ROBERT W. NEY, Ohio                  California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
JERRY MORAN, Kansas                  EARL BLUMENAUER, Oregon
GARY G. MILLER, California           ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, Jr., New Jersey
ROB SIMMONS, Connecticut             LEONARD L. BOSWELL, Iowa
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         BRIAN BAIRD, Washington
TODD RUSSELL PLATTS, Pennsylvania    SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
BILL SHUSTER, Pennsylvania           RICK LARSEN, Washington
JOHN BOOZMAN, Arkansas               MICHAEL E. CAPUANO, Massachusetts
JIM GERLACH, Pennsylvania            ANTHONY D. WEINER, New York
MARIO DIAZ-BALART, Florida           JULIA CARSON, Indiana
JON C. PORTER, Nevada                TIMOTHY H. BISHOP, New York
TOM OSBORNE, Nebraska                MICHAEL H. MICHAUD, Maine
KENNY MARCHANT, Texas                LINCOLN DAVIS, Tennessee
MICHAEL E. SODREL, Indiana           BEN CHANDLER, Kentucky
CHARLES W. DENT, Pennsylvania        BRIAN HIGGINS, New York
TED POE, Texas                       RUSS CARNAHAN, Missouri
DAVID G. REICHERT, Washington        ALLYSON Y. SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 JOHN T. SALAZAR, Colorado
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
VACANCY

                                  (ii)




        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                FRANK A. LOBIONDO, New Jersey, Chairman

HOWARD COBLE, North Carolina         BOB FILNER, California, Ranking 
WAYNE T. GILCHREST, Maryland         Democrat
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
ROB SIMMONS, Connecticut             GENE TAYLOR, Mississippi
MARIO DIAZ-BALART, Florida           JUANITA MILLENDER-McDONALD, 
DAVID G. REICHERT, Washington,       California
Vice-Chair                           MICHAEL M. HONDA, California
CONNIE MACK, Florida                 ANTHONY D. WEINER, New York
LUIS G. FORTUNO, Puerto Rico         BRIAN HIGGINS, New York
CHARLES W. BOUSTANY, Jr., Louisiana  BRIAN BAIRD, Washington
DON YOUNG, Alaska                    JAMES L. OBERSTAR, Minnesota
  (Ex Officio)                         (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Brice-O'Hara, Rear Admiral Sally, Commander, Fifth District, 
  U.S. Coast Guard, accompanied by Captain John Sarubbi, Port of 
  Philadelphia...................................................     7
Campbell, Bradley M., Commissioner, New Jersey Department of 
  Environmental Protection.......................................    22
 McGinty, Kathleen A., Secretary, Pennsylvania Department of 
  Environmental Protection.......................................    22
Rochford, Dennis, President, Maritime Exchange for the Delaware 
  River and Bay..................................................    32
 Ruch, Lieutenant Colonel Robert J., Commander, Philadelphia 
  District, U.S. Army Corps of Engineers.........................     7
 Stiles, Eric P., Vice President for Conservation and 
  Stewardship, New Jersey Audubon Society........................    32

              PREPARED STATEMENT FROM A MEMBER OF CONGRESS

Saxton, Hon. Jim, of New Jersey..................................    70

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Brice-O'Hara, Rear Admiral Sally................................    43
Campbell, Bradley M..............................................    55
 McGinty, Kathleen A.............................................    58
Rochford, Dennis.................................................    61
 Ruch, Lieutenant Colonel Robert J...............................    68
Sarubbi, Capt. Jonathan..........................................    44
 Stiles, Eric P..................................................    76

                        ADDITIONS TO THE RECORD

Delaware Riverkeeper, Maya K. Van Rossum, statement..............    77
Partnership for the Delaware Estuary, Inc., Kathy Klein, 
  Executive Director, statement..................................    84


        OVERSIGHT FIELD HEARING ON THE DELAWARE RIVER OIL SPILL

                              ----------                              


                       Tuesday, January 18, 2005

        House of Representatives, Subcommittee on Coast 
            Guard and Maritime Transportation Committee on 
            Transportation and Infrastructure, Washington, 
            D.C.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Independence Seaport Museum, Penn's Landing, 211 South Columbus 
Boulevard and Walnut Street, Philadelphia, Pennsylvania, Hon. 
Frank A. LoBiondo [Chairman of the Subcommittee] presiding.
    Mr. LoBiondo. Good morning. I would like to call this 
hearing of the Coast Guard Subcommittee to order. And I am 
going to start with a brief statement. We will have statements 
from some of the other Members of Congress, and then we will 
move to our first panel.
    The Subcommittee on Coast Guard and Maritime Transportation 
is meeting this morning to investigate the recent oil spill in 
the Delaware River and to review the response of Federal, 
State, and local official to the incident.
    On November 26 of '04, the ATHOS I, a Cypriot-flagged tank 
vessel carrying heavy crude oil, struck a submerged metal 
object as it was being guided by tugs to the Citgo Oil 
Processing Facility in Paulsboro, New Jersey. The collision 
created two gashes in the vessel's hull and resulted in the 
release of 265,000 gallons of oil into the Delaware River. The 
oil has affected some of the most environmentally sensitive 
shorelines on the East Coast, resulting in the loss of wildlife 
in New Jersey, Pennsylvania, and Delaware. Efforts to remove 
the oil and mitigate the damage are still ongoing. And although 
we still do not know the full extent of the environmental and 
economic damage caused by the spill, we do know that we are 
likely to suffer its consequences for years to come.
    The Coast Guard, in conjunction with numerous Federal and 
State agencies, has coordinated the response to this incident. 
I want to commend the Coast Guard and the other Federal, State, 
and local officials for their quick response to the spill and 
their efforts to minimize the extent of this disaster.
    Following the Exxon Valdez oil spill, Congress passed the 
Oil Pollution Act of 1990, which improved the Federal 
Government's ability to prevent and respond to oil spills. This 
Act directed the Coast Guard to develop and maintain specific 
contingency plans for spills in coastal waters throughout the 
United States. I look forward to hearing the testimony this 
morning regarding the coordination and completeness of the 
response efforts to the incident under the Delaware River Plan 
and whether any improvements should be made to the Act to help 
prevent further incidents and ensure the viability of our 
ecologically sensitive coastal waters.
    I also look forward to hearing from the witnesses on how 
such a large obstruction came to be located in the middle of a 
shipping channel that is used by large oil tankers each and 
every day. Obstructions like this not only pose a huge risk to 
the safety of the vessels and the coastal environment, but also 
to the efficient movement of goods and cargo in the maritime 
transportation system. I understand the investigation into the 
origins of this object is ongoing; however, I hope that the 
witnesses can provide the Subcommittee with an update this 
morning. I also hope the witnesses can tell me and the other 
Members what efforts will be made to locate and remove or mark 
any similar obstructions from the Delaware River and other 
important U.S. waterways. I am sure we are going to be hearing 
from Congressman Andrews on this issue, because Rob and I have 
talked privately, and there is an initiative that we are very 
interested in pursuing together.
    The safety and security of the maritime transportation 
system will remain a priority concern of this Subcommittee in 
the 109th Congress. Our ports provide the entry point for more 
than 95 percent of the United States overseas trade. The 
maritime transportation industry provides employment to 
hundreds of thousands of Americans and is an integral part of 
the U.S. economy. The Nation depends on the safe and efficient 
transport of commerce via the maritime transportation system. 
This Subcommittee will continue to oversee the industry and 
will develop and move legislation to improve the safety and 
security of America's ports and vessels operating in U.S. 
waters.
    I hope the testimony we receive at this hearing will help 
us develop initiatives to ensure the safety of the maritime 
transportation system and help prevent future oil spills in our 
ecologically sensitive coastal waters. I want to take a moment 
to thank the witnesses who have come here today as well as 
groups, such as the Fish and Wildlife Service, the Tri-State 
Bird Rescue, the Delaware Riverkeeper Network, and the hundreds 
of volunteers for their tremendous efforts to mitigate this 
incident, protect critical habitat, and save countless wild 
animals. I also want to extend my sincere appreciation to the 
Independent Seaport Museum for hosting us today. You have a 
very impressive facility here. Finally, I would like to thank 
my colleagues who are here with us today who are going to help 
out with this hearing.
    We will proceed now, and I would like to ask Congressman 
Castle, who has been gracious to join us today but has to 
leave, if he would like to make any opening remarks.
    Mr. Castle. Well, thank you, Mr. Chairman.
    I would first like to thank you, Frank, for the invitation 
to participate in the hearing today. I am also pleased to join 
my colleagues today, Rob Andrews, with whom I have worked for a 
number of years, and Allison Schwartz, with whom I have worked 
for a least a few years in my case in discussing this critical 
issue. Finally, I would also like to thank the expert witnesses 
for taking their time to be here today.
    The Delaware River is a valued environmental resource and 
commerce channel in Delaware and all states represented here at 
this table. Protecting its viability is a top priority for all 
of us. The federal and state agencies responded to the spill in 
a coordinated, timely, and efficient way, and have worked 
tirelessly to find solutions and execute extensive clean-up 
efforts. Certainly the impact on the health of the river and 
the wildlife it is home to is quite serious.
    But I believe we need to focus on lessons learned and how 
to prevent such an environmental tragedy from happening in the 
first place and happening again. Therefore, we would be at 
fault if we did not ask: Is the scope of the investigation 
broad enough, and are there enough federal resources in place 
to identify ways to ensure that an incident like the oil spill 
does not happen again?
    Identifying the sequence of events surrounding the Delaware 
River oil spill on November 26, 2004 determine exactly how it 
happened and who is responsible for this submerged object that 
led to the punctured hole of the ATHOS I remains central in 
unanswered questions in this ongoing investigation and must be 
answered. However, it is also my hope that in the course of 
this hearing we will learn what steps are necessary as we look 
to the future to prevent another disaster along the Delaware 
River. Personally, I have a number of questions that I believe 
need to be answered and hope that they will be through the 
course of the testimonies. And at the end, I will make a 
recommendation on what I believe might be helpful as our states 
collectively face various proposals affecting this river.
    First, what warning and detection systems are in place to 
notify authorities of dangerous or questionable submerged 
objects? Second, why did the Army Corps of Engineers' sonar 
equipment not detect this submerged object or objects? Third, 
it seems evident that we need better inspection of the Delaware 
River bottom, but do we need better inspection of vessels that 
travel the Delaware River? Fourth, if we believe we do, how 
would such systems be implemented? And finally, while it is my 
understanding that the majority of vessels that travel the 
Delaware River are double-hulled, not 100 percent are; 
therefore, should we, or can we, as a region, designate the 
Delaware River as navigable exclusively by double-hulled 
vessels or approach that in some other manner?
    It is clear to me, and probably everyone in this room, that 
regional coordination for happenings in and along the Delaware 
River must be coordinated in order to effectively balance the 
interests of both industry and the environment. In the coming 
months and years, our states will face numerous proposed 
industrial and government activities that have potential 
safety, environmental, and economic consequences, including the 
proposal by the U.S. Army to release the X nerve gas, the 
siting of a liquid natural gas facility by British Petroleum, 
possible transport of spent nuclear fuel by barge to our ports, 
and deepening of this river.
    As we vet current and projected regional proposals for 
activity in and along the Delaware River, and as we try to 
prevent disasters like the oil spill from occurring, it seems 
to me we must do the following: one, first and foremost, ensure 
each State's own environmental and safety laws are recognized 
and adhered to; two, increase regional coordination among the 
States and the Federal and local agencies to ensure all 
interests are considered; three, design a sustained prevention, 
monitoring, and research program of the Delaware River to 
better ensure that we understand the effects of industrial 
proposals or incidents on the river and its wildlife habitats.
    In order to accomplish the above three goals, I would like 
to suggest the establishment of the Delaware River Industrial 
Prevention, Monitoring, and Event Response Task Force. This 
Task Force would be charged with three primary 
responsibilities: one, researching and examining ways to 
prevent future accidents and incidents in the future, perhaps 
by starting with the questions I proposed earlier in my 
statement; two, establish a regional response team comprised of 
Federal and State agencies to analyze proposed and present 
activity along the Delaware River to determine regional costs 
and benefits and to coordinate any necessary clean-up efforts 
in the wake of an adverse incident; and three, implement a 
sustained Delaware River health monitoring program. One way to 
implement such a task force would be to designate an earmark 
appropriation in fiscal year 2006 to a particular agency to be 
the lead in setting up a specific Delaware River Industrial 
Prevention, Monitoring, and Event Response Task Force.
    Mr. Chairman, the goal of all of us is to ensure the 
viability of the Delaware River as a commercial tool and an 
environmental resource for years to come. This is what I hope 
to accomplish for the establish of the above discussed task 
force.
    Mr. Chairman, as you indicated when you were kind enough to 
call on me, I apologize that I can not stay long enough to hear 
the testimony of our expert witnesses, as I must depart for the 
inauguration of Delaware's governor to occur at 12:00 noon in 
Dover. I am going to be pressing it as it is. I do, however, 
look forward to reading the transcript and to learning the 
opinions of the witnesses here with us today on the questions 
and proposals I have suggested as well as those of my 
colleagues. I will have a staff person here as well. And Mr. 
Chairman, I certainly appreciate the opportunity to be here, 
and I thank my colleagues for allowing me to go first because 
of my schedule.
    Mr. LoBiondo. Well, thank you, Mike. We appreciate your 
being here. We appreciate your interest and involvement and 
your suggestions and look forward to working with you as we 
move forward on these issues. Thanks.
    Next, I would like to call on Congressman Rob Andrews. Rob, 
I thank you for being here. Rob and I have worked together on a 
number of issues. Our Districts share a common boundary, and we 
have many topics that we have similar views on. And I am very 
appreciative, Rob, that you have taken the time to be here to 
give us your views and help out on this important issue.
    Mr. Andrews. Thank you, Mr. Chairman, and good morning.
    I want to begin by expressing my appreciation to you, 
Chairman. I will call you Frank. It feels more comfortable 
calling you Frank. As usual, Frank is a champion for this 
region, and when this very unfortunate occurrence, I think 
tragedy, occurred, he was the first to step forward with a 
proactive, intelligent response to it. I thank him for his 
leadership, for his friendship, and I am certain that all of us 
working together will find the best solution to this. I thank 
you for inviting me to be here this morning. I thank the 
witnesses. I look forward to hearing from you.
    I also want to echo Mike Castle's comment about thanking 
the individuals who responded to this tragedy: the Coast 
Guard's men and women; the personnel of the Army Corps of 
Engineers; the Federal employees who work for the Fish and 
Wildlife Service and many other agencies; the State agencies 
and local agencies that came out; first responders up and down 
the river; citizen volunteers, many of whom put in countless 
hours. It was--as disturbing as the incident was, it was 
encouraging and inspiring to see the selflessness and 
dedication of men and women who went out under bitter weather 
conditions hour after hour, day after day, and we express our 
appreciation for that.
    I hope this is the last one of these hearings we ever have. 
I hope that we never have a need for another hearing to 
evaluate a disaster, an ongoing disaster of this magnitude. And 
as Frank eluded to--as the Chairman eluded to just a few 
moments ago, I think that one of the ways we can avoid having 
another tragedy and therefore another hearing of this nature is 
to press for a robust and full debris maintenance or debris 
clean-up mission for the Army Corps of Engineers on this river. 
It is not the fault of the Army Corps that it has not embraced 
such a mission to this point. We, in the Congress, have not 
given the Corps the resources that are needed to embrace such a 
mission.
    I am not an expert at all in these issues, but in my mind, 
it comes down to this: Whose responsibility was it to, on a 
regular basis, check for the presence of debris like that, 
which evidently caused this spill? The best I can tell is the 
answer is it was no one's responsibility. It wasn't anyone's 
primary responsibility to take care of such an issue. That is 
not an indictment of the agencies involved. It is an 
observation of the gap that we have in the protection of our 
river.
    A few years ago, Congressman Curt Weldon, another river 
neighbor, and I embarked on an effort to give the Army Corps of 
Engineers a debris clean-up mission for the Delaware River. We 
were successful in obtaining some authorizing language, which 
gave the Corps the beginnings of the authority to do that 
mission, but we were not yet successful in obtaining the 
resources that the Corps needs to have the boats and the other 
equipment necessary to do the job.
    One of the results that I hope that will flow from this 
morning's discussion is a consensus, number one, as to what the 
right solution is, and then a commitment, number two, to work 
together, both sides--all sides of the river, both sides of the 
aisle, both sides of the capital to effectuate that solution.
    So, to my colleagues Allison Schwartz, Mike Castle, it is 
an honor to join you, and especially the Chairman of the 
Committee, Frank LoBiondo. Thank you for exercising leadership 
on this issue. I look forward to following your lead and coming 
up with a solution that prevents this from happening again. 
Thank you.
    Mr. LoBiondo. Okay. Thank you, Rob.
    Congressman Jim Saxton was very interested in being here 
today. Jim led a small delegation that I was privileged to be a 
part of, which was in Iraq and Afghanistan last week, and he 
had some prior commitments that kept him from changing things 
around, but he has asked that we submit a statement into the 
record. And I would ask to do that at this point. Jim will 
certainly be a partner with us as we move forward.
    We are joined today by Congresswoman Allison Schwartz. 
Allison, congratulations on your service to Congress, and we 
look forward to working with you. We and the Delaware Valley 
have a very strong bipartisan activity, I guess you would call 
it, or activism that works well, and we are thrilled you are 
with us today. Good luck with your future endeavors.
    Ms. Schwartz. Thank you very much, Mr. Chairman. I am very 
pleased to be with you this morning, and I thank you very much 
for the privilege and the opportunity to participate in today's 
hearing.
    As you know, I was just recently appointed to the Committee 
on Transportation and Infrastructure, and in the coming weeks, 
I look forward to working with you and other distinguished 
Members of the Committee.
    I also want to welcome our witnesses and thank them for 
providing the expert testimony. In addition, I want to thank 
and applaud the hundreds, literally thousands of Pennsylvanians 
who donated their time to the massive clean-up effort. I think 
the estimates are that 1,700 volunteers came out on the river 
to help with the clean up.
    Mr. Chairman, I am really pleased to be rolling up my 
sleeves and getting to work right away on Congressional 
oversight responsibilities. As you know, this is really the 
15th day on the job for me, so this is one of my first official 
duties, and I am really--I am very pleased to be here, although 
I will echo my colleague's comments in saying I am sorry that 
we are not here to be discussing some better circumstances than 
we are this morning.
    As you know, the Port of Philadelphia is the region's--
really one of the reason's epicenters of international 
commerce, and it plays a vital role in the area's economy. The 
Delaware River bay and the tributaries are visited also by 
thousands of fishermen, wildlife observers, and recreational 
boaters every year. Like the port itself, these activities 
contribute substantially to Pennsylvania's economy. I am sure 
my colleagues will agree that it does the same for New Jersey 
and for Delaware. The recent oil spill had a devastating 
multiplier effect, temporarily shutting down the Salem Nuclear 
Power Plant, impeding trade, injuring and killing wildlife, and 
putting area drinking water at risk. Despite the round-the-
clock clean up, we have yet to complete determination of the 
total costs of the clean up or for restoration, and we have not 
yet identified the party or parties responsible for the spill 
and for its associated costs.
    Over the last several weeks, we have quickly realized that 
our response system needs to be reviewed and analyzed and 
action may need to be taken on any improvements determined to 
be necessary. In addition, we have to assess actions that are 
available to us now that could and should prevent future 
spills. As a resident of the region and a citizen concerned 
about the State's fiscal well being, I want this regional 
resource to maintain its economic and environmental health. The 
business of the port is a company commerce and the surrounding 
recreational activities depend on it.
    It is my hope that today's hearing will demonstrate that 
this is a shared goal and that it will be met with strong, 
bipartisan support and cooperation.
    Again, Mr. Chairman, thank you for conducting this vitally 
important hearing. Please know that I will be a dedicated 
member of the team, working not just today, but in the future 
to remedy the damage caused by this incident and to work, in 
the most important way, to prevent any future spills. Thank 
you, Mr. Chairman.
    Mr. LoBiondo. Okay. Thank you, Allison.
    We have three panels today that will be testifying 
officially. We will start with the first panel. We have Rear 
Admiral Sally Brice-O'Hara, who is the Commander of the Fifth 
District of the United States Coast Guard. The Admiral is 
accompanied by Captain John Sarubbi, who is the Captain of the 
Port of Philadelphia. And we also have Colonel Robert Ruch, who 
is the Commander of the Philadelphia District U.S. Army Corps 
of Engineers.

TESTIMONY OF REAR ADMIRAL SALLY BRICE-O'HARA, COMMANDER, FIFTH 
  DISTRICT, UNITED STATES COAST GUARD, ACCOMPANIED BY CAPTAIN 
  JOHN SARUBBI, PORT OF PHILADELPHIA; AND LIEUTENANT COLONEL 
  ROBERT J. RUCH, COMMANDER, PHILADELPHIA DISTRICT, U.S. ARMY 
                       CORPS OF ENGINEERS

    Rear Admiral Brice-O'Hara. Thank you. Good morning, Mr. 
Chairman and distinguished Members. Thank you for the 
opportunity to discuss the ATHOS I incident.
    The Delaware Bay and River is home to the Nation's sixth 
largest port. Daily nearly 42 million gallons of crude oil are 
moved on this waterway. The entire port system generates 
approximately $19 billion in annual economic activity. On 
November 26, the ATHOS I, a 750-feet Cypriot-flagged tank ship 
was delivering Venezuelan crude oil to the Citgo pier in 
Paulsboro, New Jersey.
    Within 250 feet of its destination, a submerged object 
hulled the number seven center cargo tank, spilling oil into 
the Delaware River. The response was swift, comprehensive, and 
in accordance with the requirements of the Oil Pollution Act of 
1990. Quick establishment of a unified command ensured 
inclusion of all interested stakeholders. By early morning, 
members had assembled from Pennsylvania, New Jersey, Delaware, 
the Coast Guard, and the O'Brien's Group, representing the 
responsible party. It would ultimately grow to include nearly 
three dozen entities aligned by their use of the Incident 
Command System.
    Despite the complexity of this case, the unified command 
and its general staff worked exceptionally well. Their primary 
objectives included stabilizing the vessel and preventing 
further discharge, shoreline assessments, protective booming, 
oil recovery, establishing and enforcing a safety zone, 
collecting and rehabilitating injured wildlife, facilitating 
vessel traffic, and informing the public.
    Within hours, thick oil had spread six miles to the north 
and was slowly moving south. Initially, it was slightly 
buoyant, very viscous, and sticky. With cooling and weathering, 
it tended to sink. Eventually, it impacted 57 miles of the 
Delaware River. At its peak, the response employed over 1,800 
people and 140 vessels. The clean up will continue into the 
summer.
    The spill significantly affected vessel traffic and 
facilities. Collaboration with the Mariners Advisory Committee 
and Delaware Bay and River Pilots Association was instrumental 
in returning the port to normal operations. Submerged oil was a 
major concern. It threatened water intakes at the Salem Nuclear 
Power Plant and prompted a precautionary 11-day shutdown of two 
reactors. Tracking and locating submerged oil was a new and 
major challenge, however, consultations with experts led to 
several unconventional, yet effective, detection and recovery 
methods.
    Concurrently, Captain Sarubbi initiated a marine casualty 
investigation, retracing the ship's track lines, survey teams 
located several objects, a large cast iron item approximately 
700 feet from the pier was removed and proved to be a heavily 
corroded lower housing of a centrifugal pump. It showed 
evidence of fresh scrapes, including red paint, which the NTSB 
matched to the ATHOS I. In addition, an anchor was salvaged 
yesterday, and it appears to have evidence of impact. An 
investigation is ongoing. We do not know the manufacturers or 
owners of any item. The ATHOS I was stabilized, lightered, and 
brought to Citgo for discharge of its remaining cargo.
    A temporary hull patch allowed it to safely proceed to 
Mobile, Alabama for repairs. Initial estimates proved 
inaccurate. The tank cleaning during dry-docking resulted in 
the Unified Command's final estimate that about 265,000 gallons 
of oil spilled into the Delaware River. Planning, preparedness, 
and training were key to the success of the community's rapid 
and thorough response to this incident.
    Mr. Chairman, meeting America's need for waterborne 
transportation of goods while, at the same time, protecting the 
environment is a great challenge. It is imperative that the 
public, maritime communities, and the government work closely 
to manage these competing priorities. I wish to acknowledge the 
professional expertise of the representatives of the 
Commonwealth of Pennsylvania, the States of New Jersey and 
Delaware, and the O'Brien's Group. Additionally, several 
agencies and special teams contributed noteworthy assistance. 
EPA's Emergency Response Team, the Navy Supervisor of Salvage, 
NOAA's Scientific Support Coordinator and Navigation Response 
Team, the Army Corps of Engineers, U.S. Fish and Wildlife, Tri-
State Bird Rescue, and all involved citizens.
    Captain Sarubbi and I are ready to answer your questions, 
sir.
    Mr. LoBiondo. Okay. Thank you, Admiral.
    Colonel, please proceed.
    Lieutenant Colonel Ruch. Good morning, Mr. Chairman and 
distinguished Members of the panel. I am Lieutenant Colonel 
Robert Ruch, Commander of the Philadelphia District of the U.S. 
Army Corps of Engineers.
    I am pleased to appear before you today to discuss the role 
played by the Corps in response to the ATHOS I oil spill in the 
Delaware River on November 26, 2004. On November 27, 2004, 
Captain Sarubbi, the U.S. Coast Guard Captain of the Port and 
Incident Commander for the ATHOS I spill event, requested that 
the Philadelphia District survey the Mantua Creek Anchorage. 
The Philadelphia District Survey Team began this work on 
November 28, 2004 using multi-beam surveying technology to look 
for possible obstructions that could have caused the incident.
    Initial surveys, which were conducted over the time period 
of November 28 through the 30th, did not identify any 
obstructions. On December 1, 2004, the Corps supplemented the 
multi-beam technology with a contractor-provided side scan 
sonar to--in an attempt to identify obstructions, focusing its 
efforts along the paths taken by the ATHOS I as it approached 
the Citgo dock. On December 2, 2004, the Corps began to work in 
association with NOAA, and they sent a surveying team that was 
also assigned to assist in the event. Data provided by the 
Corps and NOAA were provided daily to the U.S. Coast Guard 
investigation team. This information, combined with similar 
data provided by the surveying and dive team hired by the ship 
owner, led to the identification of the suspected object in the 
Mantua Creek Anchorage.
    Due to concerns raised by the shipping industry, Captain 
Sarubbi requested that the Corps perform in-depth surveys along 
the entire Delaware River shipping channel from the Commodore 
Barry Bridge upstream to the incident site, a distance of 
approximately seven miles, to assure that the this was to 
assure that the channel was free of any further obstructions. 
The Corps and NOAA team worked together in this effort from 
December 4, 2004 through the afternoon of December 7, 2004. The 
channel was determined to be clear of obstructions and was 
opened without restrictions on December 7, 2004.
    The Corps continues to work with the Coast Guard 
investigation team in the identification of the obstruction 
found in the anchorage and other related issues, as further 
discussed by the Coast Guard. I commend Captain Sarubbi and the 
entire team on their efforts following the incident. The 
excellent cooperation of all of the parties involved, including 
federal and state agencies and the representatives of the 
ship's owner, are attributed to Captain Sarubbi's outstanding 
leadership.
    I would also like to commend the efforts of the NOAA 
Navigation Response Team led by Mr. Howard Danley and 
Lieutenant Commander Rick Fletcher. Their survey expertise and 
dedication throughout the investigation greatly assisted the 
Corps in its mission and proved to be an invaluable 
partnership.
    This concludes my testimony, and I will be pleased to 
answer any questions you have.
    Mr. LoBiondo. Okay. Thank you, Colonel, very much.
    First, for the Admiral, does the Coast Guard, in its lead 
role under the Delaware River Committee for Incident Response, 
have access to the latest information on location of the area's 
critical wildlife habitats?
    Rear Admiral Brice-O'Hara. Yes, sir. The Coast Guard has 
access to that information, which is developed through the Area 
Contingency Plan. That is part of the pre-planning that is done 
collaboratively in anticipation that there would be a tragedy 
of this nature.
    Mr. LoBiondo. So those areas have been taken into account 
in the incident response planning process?
    Rear Admiral Brice-O'Hara. Yes, sir. Would you like a more 
specific answer? Captain Sarubbi is more familiar with the 
details, if you would like a little amplification.
    Mr. LoBiondo. Well, I would, and just, as a little more of 
a preamble with it, I, along with a number of environmental 
groups, are somewhat frustrated with the delay in putting out 
the booms. Now I know that that is where some of the oil spread 
into the sensitive areas. I also know that you had a critical 
weather problem that prevented you from doing some things, but 
that is why I am going along this line a little bit, and I 
would like you to elaborate, if you could, Captain.
    Captain Sarubbi. Yes, I can, Chairman.
    As a requirement, each Captain of the Port was required to 
establish an area committee. That area committee is primarily 
charged with ensuring that the port community, both government 
and industry, is prepared to respond to an incident of this 
nature, and oil spill. Our area committee has been in place 
since about the mid-'90s, and just after the formation of the 
committee we developed the Area Contingency Plan, which the 
Admiral talked about. That plan has identified in it all of the 
different environmental-sensitive areas that need to be 
addressed during an oil spill. As part of the planning efforts 
that take place in our area committee, we had previously 
established protocols for booming off of the environmentally-
sensitive creeks. And on the first day of the incident, we 
began to boom off those environmentally-sensitive creeks. In 
fact, by the end of the first day, we had some 12 of those 
creeks boomed off.
    So we had a plan in place to boom the creeks off based 
however, and I think going--looking back, we boomed off, in 
total, about 26 environmentally-sensitive rivers, creeks, and 
those types of areas. I think, as we look back at--you know, 
now we are, I think in about 52 days into it, it is probably 
one of the things where we may need to take another look at 
that plan that we have for some lessons learned to see if we 
can do a better job. We did have some difficulty initially 
putting off some of the boom. We had a long, wide part of the 
river that we had to put boom out. We ended up putting over 20 
miles of boom over 120,000 feet. We had difficulty in some 
areas in maintaining the boom. For example, at Raccoon Creek, 
the current there is very strong and difficult to deal with, 
and every time we put a boom out, it broke. In other cases, we 
had a lot of debris in the river, and that interfered with the 
boom. In some cases, it actually helped, because it put an 
increased barrier between the river and the tributary. In other 
cases, we had the current, because the current was so strong, 
the oil was entrained underneath the booms or just passed right 
under the booms, so we do realize that some oil did get into 
some of these more environmentally-sensitive creeks and, as I 
said, I think this is probably one of the lessons learned that 
we will take back to the area committee, take a look at our 
booming strategies for the future.
    Mr. LoBiondo. Okay. Again, for Admiral or Captain, the 
Delaware River is home to some of the largest and most critical 
ports in our Nation. They employ thousands and are a vital link 
for international trade. Are the representatives of the local 
maritime community involved with the incident response planning 
process?
    Captain Sarubbi. Yes, Chairman. We actually have two 
committees now. As you know, with the Maritime Transportation 
Security Act, each of the Captains of the Ports are required to 
establish an area maritime security committee. That committee 
ensures that the maritime community, both on the government 
side, Federal, State, and local, as well as the industry are 
ready to do two things. One is to prevent a terrorist attack 
from happening within our port, but also to respond if we need 
to do so we do do some response planning in that as well, but 
in the area committee, the one that is primarily to deal with 
oil spill response, the--both the industry and government work 
together. We have representatives from the State of New Jersey, 
the Department of Environmental Protection, for example, 
Pennsylvania, Delaware, as well as members of the industry from 
oil refineries from the oil spill response companies, and other 
interested members that would be involved should we have a 
spill.
    Mr. LoBiondo. I am assuming there are detailed contingency 
plans that deal with an extended closure of the river?
    Captain Sarubbi. Under my authority, of course I have the 
authority to close the river, and that is, in fact, what we did 
on the first night of the event. We quickly realized that 
closing down the river, with a port as large as the Port of 
Philadelphia, would have a significant economic impact on the 
community. So one of the top priorities of the Unified Command 
was to reopen the port. Our initial priority--our top priority 
had to remain recovering the oil, but we quickly realized that 
getting the port back open was also an important priority.
    As the Admiral indicated in her opening statement, we had 
Captain Mike Linton from the Pilot Association, and also 
representing the Mariner Advisory Committee, which is the local 
harbor safety committee, joining Unified Command on Saturday, 
and he began helping us to develop protocols. He worked with my 
waterways management staff to develop protocols to get the port 
reopened.
    And in fact, on Sunday, the second day into the spill, we 
did allow limited ship movement. I think we allowed three ships 
to come into port and a couple of ships to move within the 
port. On Monday, we implemented those protocols and began to 
allow ship traffic to move on a limited basis. We were 
concerned for a number of different things. One, we wanted to 
make sure that ships that had been in port and had been 
contaminated by the oil did not leave port dirty and then 
contaminate areas of the river and bay that were not oiled.
    So we had to establish a cleaning process, which we did. We 
actually put teams of people together to clean ships. As you 
can imagine, cleaning an 800-foot tanker is not an easy chore. 
We had some difficulties in initially doing that. And as the 
first couple of days into the incident, we had some significant 
backlogs of shipping. I think it--all total, we probably had 
about 200 ships that were impacted, either delayed from 
entering port or from departing port. I think at, maybe at the 
maximum in an individual day, we probably had as many as 50 
ships awaiting either arrival or departure into port.
    We also--as a part of the process, we developed a risk-
based tool that helped us to prioritize the shipping that 
needed to leave first, and we did that in conjunction with the 
industry. We brought in representatives from the oil industry, 
representatives from different port authorities, South Jersey 
Port Corporation, the Pennsylvania Regional Port Corporation, 
and we developed this technique to help us, as I said, to 
prioritize ships so that we could get those ships that were 
most critical and most needed of leaving or entering the port 
first. And those, of course, would be oil tankers or ships with 
fruit on them that may have had spoilage.
    So while we did not have detailed plans in place for 
reopening the port prior to the spill, we quickly developed 
those plans with the help of the maritime community, Captain 
Mike Linton of the Mariner's Advisory Committee, and also the 
Maritime Exchange for the Delaware River and Bay.
    Mr. LoBiondo. The ships that needed to be cleaned, you said 
you put together a team that then prioritized and cleaned them 
before they came in or out. Did the ships have the ability to 
hire themselves, contract a cleaning crew, if they chose to, 
can you comment on that?
    Captain Sarubbi. Yeah, initially, the Unified Command--it 
was the Unified Command's desire for the Unified Command and 
the oil spill response workers to clean the ships. We felt it 
was important for us to go in and clean the ships, because we 
had the expertise to do that. But later on, we became--well, 
not later--a couple--within a couple of days, we became 
overwhelmed, so we eventually did allow the ships to clean 
themselves, but we retained the right to do the final 
inspection on the ship and then declare whether or not a ship 
was clean to leave. And we had developed a cleaning standard, 
and basically, that standard was that the ship did not have any 
visible sheening, there was no oil coming from the ship.
    As I said, we did--we quickly did get overwhelmed in the 
first few days of the spill, we did overcome that, and then we 
got into a routine, which--and I think within 11 days--on day 
11 of the spill, we were able to reopen the port, and by that 
time, traffic was pretty much up and running at that time. The 
port was reopened.
    Mr. LoBiondo. Colonel, in your testimony, you indicated 
that the Corps could not find any obstructions in the area in 
its initial scan with current sonar technology and that only 
after contracting out for necessary sonar technology was the 
obstruction located. Is the Corps conducting their regular 
surveys of the river using only the older sonar technology that 
didn't find this obstruction?
    Lieutenant Colonel Ruch. Mr. Chairman, I think I need to 
clear that up a little bit. We did not find any objects above 
project level. We look for things to the 40-foot level, and 
anything below that is below the project level that we are 
actually looking for. Now the technology we use in our routine 
surveys is a single beam, and it is almost like what you would 
have on a fishing boat. We go along a line, and they are at 
400-foot intervals perpendicular to the channel. And every 50 
feet, basically, there is a reading. So we are getting point 
readings across the bottom, not covering a great deal of the 
entire bottom of the river. We have another technology that we 
use, and we did use in this case after the incident, a multi-
beam. It really looks at the entire bottom.
    There are advantages to each kind of technology. We did not 
detect anything above the 40-foot level in the federal area of 
the anchorage. After the side scan sonar was brought in, which 
you are referring to as the contractor-owned sonar, which the 
responsible party also hired out a firm that had a side-scan 
sonar in that area, everyone went through the area. We had 
identified some areas of interest. Now not something sticking 
up off of the bottom. The main thing that was seen was 
basically a trough that people had a lot of different theories 
on what may have caused it, whether the ship dragged bottom or 
oil jetting from the ship may have caused it in the mud. But 
the actual pipe that was found was found when a diver backed 
into it. They were down looking at an area that was interesting 
because of all of the markings on the bottom, but no one ever 
was able to say, before they found that pipe, that that pipe 
was sitting there and that is what we were going down to pull 
up.
    Now every little bit of technology we have is of a great 
aide, because we see things like this trough and it gets us 
down into that area. No one found that pipe with a sonar. It 
may have read that way, but they were brought to an area of 
interest, based on all of the markings and things down there. 
It looked like something had occurred.
    Mr. LoBiondo. So what can we say about being sure the 
channel is definitely clear of further obstructions?
    Lieutenant Colonel Ruch. We are certain that there is 
nothing coming up above project level in the areas we checked. 
An individual piece of material right now, I can not tell you 
that, with absolute certainty, that you can find everything. 
But with the technology we have, over the past years we have 
been doing this, we have been very, very successful in our 
ability to say the channel is open. And I don't have a fear 
that there is a great deal of items or there is ``N'' items 
sticking up anywhere above project level. But to go down and 
find that one below the 40 foot is very difficult if it is 
below 40 foot.
    Mr. LoBiondo. The pipe was not above project level?
    Lieutenant Colonel Ruch. Not according to my surveys. Now, 
sir, I can not tell you exactly--you know, that is part of the 
ongoing investigation.
    Mr. LoBiondo. Okay. Okay. I don't want to monopolize too 
much.
    Rob?
    Mr. Andrews. Thank you, Mr. Chairman.
    Lieutenant Colonel, I want to come back to this discussion 
about the iron housing and the pipe. I understand the 
investigation is not yet concluded, so we don't know what 
caused the tear in the bottom of the ship. The ship had a 39-
foot draft, is that correct?
    Lieutenant Colonel Ruch. I believe it was 36.6.
    Captain Sarubbi. The draft of the ship is 36.6 feet.
    Mr. Andrews. And your sonar went down to 40 feet, is that 
right?
    Lieutenant Colonel Ruch. Well, yes, Congressman. I mean, it 
goes to bottom. We are looking for anything that would come 
above that 40-foot level. Yes.
    Mr. Andrews. Well, okay. Are you then ruling out the theory 
that the iron pump housing caused the gash in the bottom of the 
ship?
    Lieutenant Colonel Ruch. No, absolutely not.
    Mr. Andrews. How is it possible that it caused the gash at 
the bottom of the ship if the draft of the ship was 36.6 feet 
and you went down to 40 feet and didn't see it?
    Captain Sarubbi. I could clarify. I am conducting an 
investigation, Congressman, once the divers found the piece, 
they did take measurements of the piece, not only the length 
and the diameter and so forth, but they also measured the 
distance of the piece above the river bottom.
    Mr. Andrews. What was that distance?
    Captain Sarubbi. It was about 31/2 feet at its highest 
place, so it was protruding 31/2 feet above the river bottom--
    Mr. Andrews. And the river bottom is--
    Captain Sarubbi. --as of the time we found it.
    Mr. Andrews. --approximately 39 feet in that area?
    Captain Sarubbi. It's a project depth of 40 feet at that--
    Mr. Andrews. But it may not be exact. So if it is 39 feet, 
then wouldn't the pipe be protruding 351/2 feet, roughly, from 
the surface of the river?
    Lieutenant Colonel Ruch. Given what you said, yes, 
Congressman.
    Mr. Andrews. Well, then why didn't the sonar technology 
find it?
    Lieutenant Colonel Ruch. The sonar technology I have is 
what is currently available, and it did not pick up anything 
that came up above that level.
    Mr. Andrews. Is there any better technology out there that 
would have found it?
    Lieutenant Colonel Ruch. Yes, and once again, the multi-
beam technology we are using now seems to be better. What we 
are looking for in our normal surveys, and I am not talking 
about the debris that you are actually talking about, we are 
looking for shoaling, and that is what we go out and look for. 
And that is those 400-foot lines. We are looking for areas of 
where the river sediment is piling up and we need to do--
    Mr. Andrews. I think what you told us this morning is the 
multi-beam technology didn't find it either.
    Lieutenant Colonel Ruch. That is correct.
    Mr. Andrews. How extensive was the search by the multi-beam 
technology?
    Lieutenant Colonel Ruch. It was to the level of its 
ability. We did 75-foot passes. We put a great deal of effort 
into it.
    Mr. Andrews. So there was no more intense look that the 
multi-beam technology could have taken?
    Lieutenant Colonel Ruch. No.
    Mr. Andrews. Is there anything else out there that is 
better than the multi-beam technology?
    Lieutenant Colonel Ruch. The side scan is better, and that 
is really what led us to be down looking in that area. And that 
is what you are looking--you are hoping to, you know, find 
something that leads you to further investigation.
    Mr. Andrews. I am sorry. What is a side scan?
    Lieutenant Colonel Ruch. A side scan, it is a towed array 
that goes--that we put out behind a ship. Instead of doing a 
direct look down, it is down to a certain depth, whatever depth 
we are at, and it is looking out to the side, so it has a 
better ability to see above the bottom.
    Mr. Andrews. And did you or did you not use that here?
    Lieutenant Colonel Ruch. We did use that.
    Mr. Andrews. Okay.
    Lieutenant Colonel Ruch. And once again, it led us to put 
divers down into the area, but no one had showed me that little 
object on the bottom.
    Mr. Andrews. What would it cost to use the side scan to--if 
you had the side scan, if you used it this morning to take a 
look at the river, how much money do you need to buy one?
    Lieutenant Colonel Ruch. It is not an exceedingly expensive 
piece of equipment. You can probably purchase one for around 
$100,000, a digital system. Now, with that said, there is a lot 
that goes into having the vessel, the vessel to use it, the 
personnel to use it.
    Mr. Andrews. It is like buying a car and hearing about the 
extras. What--if we bought the whole package, with all of the 
extras, what does it cost us?
    Lieutenant Colonel Ruch. To do the sonar, I can give you a 
basic cost for the actual survey equipment. And this is 
everything from a launch to tow it to the--about $3.15 million 
for the actual equipment that would be necessary and then an 
annual of about $540,000 to actually have the personnel trained 
and performing those types of surveys. Now that doesn't go into 
removal and all of the other things that I think you are 
looking at as part of--
    Mr. Andrews. If you had the sonar technology this morning 
and you detected a possible obstruction in the shipping 
channel, whose responsibility is it to remove it?
    Lieutenant Colonel Ruch. As the regulations read now, I 
would remove a vessel that was noted to be in the channel. I do 
not have an authority to remove other items.
    Mr. Andrews. So in other words, if you were out there this 
morning and you saw what you saw after the spill and you sent 
the divers down and they confirmed that there was this pipe 
casing sticking three and a half feet up, you don't have the 
authority to remove it?
    Lieutenant Colonel Ruch. We would probably find a way to 
remove something, if it was impacting the shipping channel or 
the federal anchorage--
    Mr. Andrews. Well--
    Lieutenant Colonel Ruch. --yes, we could remove that.
    Mr. Andrews. Well, based on what authority?
    Lieutenant Colonel Ruch. I would have to go to the actual 
authorities I have back here.
    Mr. Andrews. But your first answer was you wouldn't have 
the authority really, and then you said you probably--
    Lieutenant Colonel Ruch. Well, it--
    Mr. Andrews. Common sense tells you you should.
    Lieutenant Colonel Ruch. I am saying that it is inside the 
federal area. If it is an obstruction, one of two things 
happen. We go down and see if we can remove it. And then, if we 
can't remove it for some reason, and I am saying there are 
things that are down on the bottom, rock or whatever, then we 
would mark it on the charts, and the ships would then have to 
navigate around it. But in this case, we would bring in a crane 
and bring it up.
    Mr. Andrews. Who would pay for that?
    Lieutenant Colonel Ruch. The Corps of Engineers. It would 
come out of existing O&M budget and take away from our efforts 
and our ability to do what you are asking us to do on a day-to-
day basis.
    Mr. Andrews. Mr. Chairman, this will be my last question, 
but I think I heard the cost of this being rather modest. 
What--in your opening statement, you talked about the initial 
estimates of the economic loss because of the spill. How much 
was it? It was a huge amount of money, wasn't it?
    Mr. LoBiondo. It was a huge amount of money.
    Mr. Andrews. And it was certainly multitudes higher than 
the relatively modest amount the Lieutenant Colonel just talked 
about. I am encouraged by our discussions that we have had 
about trying to implement that solution. I would just ask you 
to submit, Lieutenant Colonel, for the record, if there is any 
authority this Congress needs to give you explicitly, so there 
would be no doubt that you would have the authority to remove 
an obstruction that you found in the future, I think we would 
like to know what that is.
    Lieutenant Colonel Ruch. Absolutely. And I--we will provide 
that, and we provided it--we have, in the past, provided it and 
have been working with your staff on that. And your letter that 
several members of the panel have sent to the President has 
also requested that for the '06 budget.
    Mr. Andrews. Yeah. For the record, I know the Chairman 
knows this, but the Chairman and I and several others joined in 
a letter asking the President to include in his budget proposal 
the funding to do what the Lieutenant Colonel essentially just 
talked about.
    Lieutenant Colonel Ruch. But I will provide the language in 
written for the testimony, sir.
    Mr. Andrews. Thank you, ladies and gentlemen. Thank you, 
Mr. Chairman.
    Mr. LoBiondo. Okay. Congresswoman?
    Ms. Schwartz. Thank you.
    Just following up on some of those questions, I really 
wanted to see--two questions really to start with is where are 
we in the process of the clean up? How far along are we in this 
process, and--in terms of monies expended? And you said the 
estimates were $84 million to clean up. Those are the estimates 
that we have. Could you speak to how far along we are and how 
we have--do you have those dollars to spend, and how much have 
you already expended in the clean up?
    Captain Sarubbi. I can answer that question, Congresswoman.
    As of yesterday, the cost of recovery operations is $94.5 
million.
    Ms. Schwartz. $94 million?
    Captain Sarubbi. $94.5 million. Of that $94.5 million, $4.2 
million is money that has been expended by the Coast Guard and 
other Federal agencies, as well as State agencies in 
Pennsylvania, New Jersey, and Delaware. That $4.2 million is 
being funded out of the Oil Spill Liability Trust Fund. The 
remainder of the money is being paid for by the responsible 
party. As you may know, there are limits set forth as to how 
much money that the responsible party is responsible for paying 
in an incident like this. For a ship of this size, the amount 
is $45.5 million. On December 20, the responsible party sent me 
a letter stating that they will continue to fund the clean up 
past their limits of liability and also handle claims. And they 
are doing that. And they are, as I said, to date, continuing to 
fund the cost of the recovery and also handling all of the 
claims that are coming in from third parties, such as ships 
that were delayed or recreational boats that might have been 
contaminated by the spill.
    Ms. Schwartz. So, well, I guess that's good news. Are you 
saying then that the shipping company has agreed to pay any 
amount up to the $94 million? I mean, their liability is set at 
$45.5 million now by law, so--but they have said they are 
willing to pay whatever it takes to do the clean up?
    Captain Sarubbi. Yeah, they have told me they will continue 
to fund the cost of the recovery, and as I said, to date, they 
have spent $94.5 million, minus the $4.2 million that the Coast 
Guard has--and other Federal agencies are spending in the--out 
of the fund. Now whether they are going to continue to do that, 
I don't know. But the word I have from them now is they are 
going to continue to fund the recovery operations and address 
claims. We anticipate that recovery operations will probably be 
complete some time this summer.
    Ms. Schwartz. And does the liability trust fund have the 
money you need? I understand there is some question about 
whether you have that money in the trust fund. Do you have all 
of the money you need out of the trust fund to be able to take 
some of the burden you have financially?
    Rear Admiral Brice-O'Hara. Congresswoman, allow me to give 
you a little bit of background. The Oil Spill Liability Trust 
Fund was created by OPA 90 at a billion dollars, and the 
sources of funding were an oil tax, which was phased out in 
1994, and some legacy funds, which shifted into the trust fund. 
And those shifts were complete in 2000. So currently, the level 
of funds that remain in the trust fund are $842 million. So we 
are short of the anticipated one billion when it was created, 
because it is not self-generating income. So we do have 
concerns. As we look at a typical draw on that trust fund 
annually and look forward, we expect the trust fund to be 
depleted as early as 2009.
    Ms. Schwartz. So if this spill were to occur in 2010, there 
would be no money for you to do what you are doing now, but 
right now, you have the money?
    Rear Admiral Brice-O'Hara. We have the money now. Long-
term, we are not assured of a way ahead. There is provision for 
a consumer price increase adjustment every three years. No 
adjustment has ever been made. That authority resides with the 
Department of Transportation, the department of which the Coast 
Guard was a member at the time of the legislation. That 
authority was never delegated to the Coast Guard, and so there 
has not been an increase or adjustment for the CPI increases, 
nor does the Coast Guard have the ability to make those 
increases. So there are some structural concerns there in terms 
of now being within the Department of Homeland Security, who 
has authority, and should that be divested down to the Coast 
Guard's level.
    Ms. Schwartz. My staff told me that if we had used the CPI 
with--if that authority had been exercised, $64 million would 
have been the liability limit in this case. Now I--since--
having just said that the shipping company is already accepting 
greater liability than the $45 million, that may not be the 
kind of concern we would have if they were not, although we 
could be in that situation where they could say, ``This is it. 
We are not paying any more.'' And then I guess the question is 
what happens then to any additional challenges or damage in the 
future. Could you speak to what happens at that point?
    Rear Admiral Brice-O'Hara. Well, there needs to be a 
remedy, Congresswoman.
    Ms. Schwartz. But at this point, there isn't a remedy 
unless it is through lawsuits or actions against the shipping 
company or whoever might be determined to be responsible?
    Rear Admiral Brice-O'Hara. Or legislative adjustments as 
well. I think we are looking at two different types of 
remedies, liability limits being one piece of that, the other 
being how we manage sources of income to sustain the trust fund 
at the level that was envisioned when it was created in 1990.
    Ms. Schwartz. Well, we could reauthorize the trust fund. We 
could do that. And as Congress, we could reauthorize it and 
make sure that those funds come in from the shipping companies, 
the oil companies, which is where that trust fund dollars came 
from, correct? We could do that.
    Mr. LoBiondo. Would you yield for a minute?
    Ms. Schwartz. Yeah.
    Mr. LoBiondo. That is a great question that you brought up, 
and I think we are going to research it. If we were to deal 
with the tax, we would have to refer to Ways and Means.
    Ms. Schwartz. Um-hum.
    Mr. LoBiondo. But I believe, and we are going to check 
this, that in the Coast Guard authorization bill, which we have 
been successful with the last couple of years, that we can deal 
with the limits and that definitely will be something that we 
will look at.
    Ms. Schwartz. Great.
    Mr. LoBiondo. So that is a great point.
    Ms. Schwartz. All right. Well, thank you. And if I may, Mr. 
Chairman, just--
    Mr. LoBiondo. Sure.
    Ms. Schwartz. Just one other set of questions, if I may. 
And it really speaks to--I think Congressman Andrews was 
getting to some of this. The issue about prevention, one of 
them obviously is the concerns about finding debris on the 
floor--the riverbed and identifying that before we have to look 
for it because there has been a spill. Do you--without my 
providing suggestions, could you make the three top suggestions 
you would make to us that would, in fact, prevent a spill like 
this? I will offer that to the Lieutenant or to the Admiral.
    Captain Sarubbi. Well, Congresswoman, I think it is 
somewhat premature to make those recommendations. We are still 
in the very early stages of our investigation. We are still 
collecting facts. As the Admiral mentioned, we have found 
additional objects on the river bottom that we believe may have 
been associated with this incident, an anchor and also a slab 
of cement, which we are looking at as well. So to make 
recommendations or to draw any conclusions from what we have 
learned so far, I think would be very difficult to do at this 
point.
    Ms. Schwartz. It is something that I think is an extremely 
important next step. We want to first make sure that you have 
what you need, and that we are moving ahead on the clean up and 
remediation and restoration, but we also want to make sure that 
we do everything we can. One of the issues that none of you 
have mentioned, because it is not in your authority, is the 
issue that this was a single-hull vessel rather than a double-
hull vessel. And while Congress has made a clear commitment to 
push and insist upon our vessels in the future being able to be 
double-hull, this one was not. Could you--I mean, do you have 
any comments to make on that? I mean, you are working on 
cleaning up afterwards, but if it would have been a double-
hulled vessel, this would not have occurred, is that correct?
    Rear Admiral Brice-O'Hara. We know through historical 
evidence that when you have a double-hulled vessel, typically 
the outer hull has been holed, and that has been enough 
protection so that the inner hull has not been holed. It is 
very difficult, until we get through this investigation, to say 
conclusively that that would have been the case with the ATHOS 
I. What we are going to have to do is reconstruct--the piece of 
damaged hull from the ATHOS I is going to be cropped and 
delivered up here, and then we are going to compare that with 
these objects that we have brought from the bottom and do an 
analysis as to what we think exactly happened, how deep the 
punctures were, all of that is information that will come out 
during the investigation and will help us then extrapolate and 
determine whether the two double hulls would have provided 
enough protection.
    Ms. Schwartz. What I should say is when that investigation 
is complete, I am sure that you will be sending a copy to the 
Chairman, and really our being able to look at the 
investigation results and to receive any recommendations you 
might make or we might draw from them, so that we could take 
that--take action, if necessary. So--
    Mr. LoBiondo. We will--
    Ms. Schwartz. --I hope you provide that information to the 
Chairman.
    Rear Admiral Brice-O'Hara. Yes, Congresswoman.
    Mr. LoBiondo. We are understanding that the timing of the 
hearing today would mean that we wouldn't have all of the 
answers. And understanding that, we wanted to at least get the 
process started, and we will certainly be looking at follow-up 
hearings depending on what additional testimony that we 
receive.
    Ms. Schwartz. Can I just--how long is it going to take to 
do the investigation and for us to get some of those answers?
    Captain Sarubbi. The investigation will probably take 
several more months, Congresswoman.
    Ms. Schwartz. Go ahead.
    Mr. LoBiondo. Okay.
    Ms. Schwartz. Thank you.
    Mr. LoBiondo. A couple more quick things. Rob, we have on 
another panel Dennis Rochford, who is the president of the 
maritime agency that might be able to give us a closer dollar 
amount. I know Dennis talked about that briefly. And I wanted 
to follow-up, just briefly, Colonel, on what Congressman 
Andrews was talking about. If we had this technology that would 
cost in the neighborhood of $3 million and something and then 
an additional requirement each year to fund for the personnel, 
how often would you use this? Would it be every week, every 
month, every day?
    Lieutenant Colonel Ruch. It would be used every day. I--
what we would do is we would probably--what we hope to do is 
make the switch to do a multi-beam look of the entire river 
instead of a single scan look. And once again, instead of 
having point, point, point, we are looking at a better look at 
the entire river. When we see the anomalies, then we put the 
side scan down or the ROB or whatever the technology said at 
that time, and then we would go down and look at that area. So 
it would be used every day. We would be using it to prove--to 
proof the channels
    Mr. LoBiondo. Okay. One additional question for either the 
Coast Guard and/or the Corps. Are vessel operators required to 
notify the Coast Guard or the Corps of a loss of cargo 
overboard or failure to retrieve objects that are left in 
navigable waterways? For example, if a vessel dropped an 
anchor, lost that anchor, or lost a cargo container overboard, 
are they required to notify you about that?
    Lieutenant Colonel Ruch. I leave that to them, because they 
are the ones who the ship owners actually notify.
    Rear Admiral Brice-O'Hara. Mr. Chairman, the regulations 
are very specific regarding the reporting of obstructions to 
navigation with respect to a sunken vessel, raft, or other 
craft. And in that case, the owner is obligated to report that 
and to mark that obstruction. However, the regulations, when 
they discuss other obstructions, more general, provide only 
that the owner may report and mark it in the same manner as 
prescribed for sunken vessels. That is the way that the 
specific language is worded. So I think that the law could be 
clarified to impose an affirmative obligation on the owner to 
report an obstruction other than a vessel.
    Mr. LoBiondo. So what you are saying is that this piece of 
housing that we are seeing could have fallen overboard at some 
point in time and whoever--wherever this fell overboard, if in 
fact someone saw it, they did not break the law by not 
reporting it?
    Rear Admiral Brice-O'Hara. Yes, sir, the way the law is 
written, the--it uses the term ``may'' as opposed to ``shall''.
    Mr. LoBiondo. I can assure you that that will be remedied 
also in the authorization bill. Rob, do you have anything 
additional?
    Mr. Andrews. Just very quickly. I am--I must say I am 
pleased at the Chairman of the Subcommittee with jurisdiction 
over that issue is sitting immediately to our right. It is good 
that Frank is sitting in that chair.
    I just want to follow up one more question that the 
Chairman asked about booming and the effectiveness of the 
effort. If you had to give a letter grade to the quality of the 
booming effort that had taken place, let us say, as of sunrise 
on the morning of the 27th, A being top-notch, great job, F 
being failure, what is the grade you would give?
    Captain Sarubbi. Congressman, I would give it a B or a B+. 
I think we had some very difficult circumstances we had to deal 
with. You know, in addition to booming off those 
environmentally-sensitive areas, we also had to start 
recovering oil, and that meant bringing in skimming vessels. We 
also had to do an assessment of the shoreline to see how much 
oil we had and where that oil was. We had a vessel with almost 
13 million gallons still on it. We didn't know, at the time, 
what caused the rupture of the hull. So there were a lot of 
different things going on. So I think, overall, we did a good 
job--
    Mr. Andrews. What was lacking that would have made it an 
A+?
    Captain Sarubbi. I don't know that we have fully done our 
overview of that. I think we have to go back and look at, you 
know, the manpower and resources we put into doing that as well 
as the strategies. I think we also had to wait for the daylight 
to occur to be able to start that process, but we have to look 
at our strategies. I think that is probably one of the biggest 
things we have to look at. As I said, we had difficulty in 
booming off some of the creeks because of the current or the 
debris that was in the area, and we need to maybe look at 
repositioning that booming and putting it in different 
locations as--and make the booming more effective.
    Mr. Andrews. That is something that Commissioner Campbell 
is going to talk about in a few minutes, so I am interested in 
his recommendation.
    Captain Sarubbi. And maybe we need to put some booming 
further in some of these creeks so that there is a second 
barrier as well.
    Mr. Andrews. Thank you very much. Thanks, Mr. Chairman.
    Mr. LoBiondo. Okay. Allison, do you have any follow-up?
    Ms. Schwartz. Just--if you are able to identify who owned 
that pipe or whose it was that dropped it and lost it, do they 
have to then participate in the liability and what are the 
chances of that happening?
    Captain Sarubbi. I think that depends on, you know, our 
investigation if we can actually determine the owner of the 
piece, and then we will decide at that time what the 
appropriate legal authorities or actions should be.
    Mr. LoBiondo. Okay. Admiral, Captain, Colonel, thank you so 
very much. This was very enlightening. Thanks for your 
dedication to service, and we look forward to following up on 
this very important issue. We will take a very short break 
while we set up for the second panel. Thank you.
    [Recess.]
    Mr. LoBiondo. Thank you very much. We are very pleased to 
move to our second panel. We have Mr. Bradley Campbell, who is 
the Commissioner of the New Jersey Department of Environmental 
Protection, and Ms. Kathleen McGinty, who is the Secretary of 
the Pennsylvania Department of Environmental Protection. We 
thank you so much for being here. Commissioner Campbell and I 
have worked together on many, many, many issues, and Brad, I 
deeply appreciate your participation today and your expertise 
in helping us try to figure out where we go from here, and I 
would appreciate it if you start off.

  TESTIMONY OF BRADLEY M. CAMPBELL, COMMISSIONER, NEW JERSEY 
    DEPARTMENT OF ENVIRONMENTAL PROTECTION; AND KATHLEEN A. 
 McGINTY, SECRETARY, PENNSYLVANIA DEPARTMENT OF ENVIRONMENTAL 
                           PROTECTION

    Mr. Campbell. Thank you, Congressman. If I may, I would 
like to submit my formal testimony for the record and summarize 
briefly, out of respect for your time.
    Good morning, and thank you for your leadership, Mr. 
Chairman, Members of the Committee, on this devastating impact 
to the Delaware River. I want, first and foremost, to 
congratulate and thank the Coast Guard for leading what was 
truly a team effort among Federal and State and local agencies 
responding to the spill, for their leadership and also their 
cooperation and accommodation, their responsiveness to concerns 
as they were raised, either by individual states or individual 
communities. I include in that congratulations and praise the 
many community and non-governmental organizations, the Delaware 
Riverkeeper, who was on scene, and the series of non-
governmental groups, like Tri-State, who helped respond to the 
spill, coordinating the work of many hundreds of volunteers.
    From the very first day that Governor Codey visited the oil 
spill, the first morning, it was clear that the Coast Guard was 
in charge but responsive to state concerns, and that was 
vitally important. And to the extent that they are lessons 
learned, they truly are lessons that could only have been 
learned in the context of this spill, and they are not 
criticisms of the Coast Guard's response.
    Second is to recognize, as this Committee's very hearing 
today recognizes, that the impacts of this spill are 
significant. More than 200 miles of shoreline are affected. 
More than 500 water foul actually found that were affected, and 
many more that we know to have been affected but will never be 
found, either because they were killed or because we simply 
haven't identified them. Significant impacts for this estuary, 
a resource that is already under many other sources of stress, 
from storm water runoff to other sources of pollution in the 
estuary. So this is a significant event, and we fear, the 
Department, because of the relative amount of oil that was 
recovered is a relatively small proportion of the whole, that 
those impacts we will be enduring that we will continue to see 
oil wash-ups and tar balls over the coming months, and even 
possibly over the coming years.
    In terms of lessons learned, I would identify really four 
points for the Committee's focus. First, in terms of 
prevention, I think that the elements of debris removal and 
responsibility, that the Committee has already discussed this 
morning, are critically important, enhancing the resources and 
technical capability of both the Coast Guard and the Corps of 
Engineers to early detect any obstructions that could either 
present a hazard to navigation or a potential threat to the 
environment.
    Second, in terms of the liability structure under the Oil 
Pollution Act of 1990, in many ways a visionary law, but I 
think this still highlights the need to revisit the caps, the 
limits on liability, which are clearly--in terms of those 
limits, they are simply not commensurate with the damage of the 
spills relative to the amount of tonnage.
    And I want to put a small cautionary note to Captain 
Sarubbi's testimony earlier. It is true that the vessel owner 
has agreed to continue to fund the clean up, but I think it is 
important for the Committee to keep in mind two points. One is 
that after clean up, or really at the same time that we are 
completing the clean up, we need to be planning restoration 
actions that make the public whole for the damage of the 
environment. And there isn't yet a commitment to fund those 
restoration actions.
    Second, under Open 90, even when a responsible party agrees 
to fund clean up beyond the limits of liability, they still 
have a right to recover those funds in excess of the liability 
cap against the fund. So there is no sense, yet, or no 
assurance yet that the fund will be held harmless in this oil 
spill. And obviously, given the revenue issues that--for the 
fund that were identified earlier, that is a significant 
concern for states like New Jersey, who are looking not only to 
ensure that the clean up is fully funded, but may be looking--
but will be looking both to the responsible party and failing 
that--the fund to ensure full natural resource restoration.
    Third, in the area of response planning, I think there are 
significant lessons learned. Congressman Andrews mentioned 
earlier our--some of our frustrations about the booming 
efforts. Clearly, there needs to be more boom material pre-
positioned at the sensitive estuaries. There needs to be, I 
think, a reflexive booming effort as soon as a spill like this 
occurs, not an assessment period to identify whether booming is 
necessary, but immediate reflexive booming to be put in place 
as part of the response plan. Also, we need more frequent 
updates of the area contingency plan to ensure that issues like 
that are addressed in a timely way, lessons from other spills 
are learned, and certainly to ensure that data, like the data 
the Chairman identified with respect to critical habitat areas, 
was--is in the plan and is up-to-date. I think, Mr. Chairman, 
the point you made earlier is absolutely correct. There was--as 
Captain Sarubbi correctly said, there was critical habitat data 
in the plan. It simply didn't reflect the latest data, for 
example where eagles' nesting areas were that was available to 
the respective agencies.
    Finally, and fourth, I would note that, you know, the need, 
as I mentioned earlier, to focus not just on completing the 
clean up, but on a restoration effort commensurate with the 
damages. Here it is our hope, and every indication from NOAA 
has been consistent with our expectation that there will be a 
focused, expedited restoration planning effort, very much like 
the one NOAA so successfully undertook in the context of the 
North Cape oil spill in Rhode Island. And so we very much look 
forward to working cooperatively, State and Federal agencies, 
with NOAA on that effort.
    But in this, and in the Coast Guard's general effort, I 
can't help but echo a concern that Governor Codey has 
repeatedly raised, which is that in the areas of prevention and 
the areas of response and the areas of clean up and the areas 
of restoration, the Coast Guard has been asked to maintain 
those missions, those traditional missions of the Coast Guard 
over the last 15 years, at the same time they have assumed many 
new duties as a result of the challenges of domestic security 
and the threat of terrorist attack. However, the resources that 
have been made available to the Coast Guard have not been 
commensurate with those increases in duties. And our fear is, 
as we try to learn the lessons from this spill, that we will 
continue to have challenges integrating those lessons into 
better prevention and better response as long as those resource 
shortfalls are there.
    And with that, I am happy to defer to any questions the 
Committee may have.
    Mr. LoBiondo. Thank you, Commissioner, very much. And now 
we will turn to Secretary McGinty. Thank you so much for being 
here today.
    Ms. McGinty. Thank you, Mr. Chairman and Members of the 
Committee. It is a pleasure to be here, although, as has been 
articulated, under different circumstances we hope, at some 
time, to celebrate some additional successes in protection and 
prevention. And as I look at the makeup of this Committee, I 
have confidence about that, given, Mr. Chairman, your 
leadership in both environmental and economic progress and 
certainly, also, Congressman Andrews, a long-time friend of 
mine, who, in my service in Washington, I know, and here now in 
Pennsylvania, to be a champion of the environment, but 
certainly none other or more than our new Congresswoman from 
the Philadelphia area. We are thrilled to have Allison Schwartz 
now in this critical role. She certainly had been a leader in 
the Pennsylvania State Senate.
    Several comments, first leading to--or first relevant to 
what really worked well, what went right from Pennsylvania's 
perspective, and then several reflections on some improvements 
that we might make or considerations for the Congress to take a 
look at.
    First, to adopt by reference my colleague and friend Brad 
Campbell's comments. I certainly couldn't agree more with all 
that he has said, but first and foremost, the State of 
Pennsylvania wants also to commend our gratitude and the 
leadership of the Coast Guard. Their performance was exemplary. 
We thought that their response was immediate, effective. The 
organization was thorough, and the inclusion of all of the 
relevant entities was very, very effective.
    Specific to that, I want to comment to the Committee's 
attention the National Incident Management System, in 
particular. This system has seen its inaugural implementation 
here in this oil spill. And our perspective is that it has 
worked well. It brings all of the necessary competencies to the 
table. It is sufficiently specific so that the entities know 
what they are supposed to do, when they are supposed to do it, 
and the command structure is essential in effectuating that. 
However, we also found that it had the necessary flexibility so 
that when surprises arose, when the weather turned so terrible, 
it enabled us to respond and bring other resources to the table 
as necessary. So NIMS worked, and it worked well.
    Second, and also related to the overall effectiveness of 
not only the Coast Guard, the Army Corps, the other 
participating Federal and State agencies, the training that is 
provided in the OPA 90 law, and specifically every three years, 
OPA 90 provides for enhanced and renewed multi-state, multi-
federal and state training in the context of simulated 
emergency scenarios. Here, just relatively shortly before this 
incident, we had the occasion to go through a major oil spill 
training exercise. Those investments by the Federal Government 
are very effective, and I think without an exception, the 
entities who participated in the exercise and then were called 
on for the real thing would underscore that that training was 
invaluable and was enormously helpful here.
    The other thing that went right, and if the Committee would 
indulge me, I just want to recognize some of my own colleagues 
who are here. Many of you have done that in your opening 
comments, and I am enormously grateful for your recognition of 
the work of our first responders, our emergency response staff. 
I am joined by Bob Bower and Stan Sneeds of my regional office 
here. But just to add a little bit further urgency to what you 
have recognized to what these individuals bring to the job, one 
of our colleagues, Paul Jardelle, literally put his life on the 
line in this response effort. He was among those who were on 
boats deployed two or three days after the incident when the 
weather did turn very, very bad. Those boats were over-topped 
by the waves and nasty conditions that had arisen on the river, 
and he was tossed from the boat. 45-degree water was a life-
threatening situation. And here, too, everyone pitched in and 
rescued those who were tossed from those boats. But just to 
underscore, this is a very serious business, and these 
employees put their lives on the line repeatedly, and certainly 
in this instance.
    Some recommendations, going forward, are some things we 
would commend to your attention. First, resources, and I am 
surprised not others have rung this bell even louder, because 
usually your hearings are an occasion for everyone to ask you 
for more resources. But here, very specifically, our water 
quality staff in the region, the Pennsylvania Department of 
Environmental Protection staff, 50 percent of the entirety of 
our water staff have been deployed to this exercise, 3,600 man 
hours in just--really what is over--a little over a month of 
work here responding. At the same time we have that enhanced 
deployment, the State of Pennsylvania has seen a substantial 
decrease both in point source water infrastructure funds as 
well as non-point source runoff pollution funds that we receive 
from the Federal Government. Tough times all around, but just 
this year, we saw an $11 million cut in those funds, so I would 
commend your attention to those resources, because it is those 
resources that enable us to have the kind of staff that we can 
then deploy and the technology to deploy in an emergency like 
this.
    Second, waste management issues. We have found in the 
course of putting together the overall response plan that we 
are not adequately prepared to have identified in each state 
facilities that can receive waste materials so that there is 
not a bottleneck in the clean up. This was particularly 
important here, as the size of the spill grew as we understood 
that it was more than the originally 30,000 gallons that had 
been identified. So in terms of emergency response 
preparedness, we would commend to your attention a 
consideration that every state look to its waste management 
facilitates to try to identify it and have available adequate 
facilities for the variety of incidents we might find ourselves 
involved in.
    And that leads to the next point. Mr. Chairman, you were 
critically involved in the passage of the Marine Transportation 
Security Act of 2002, an historic piece of legislation. It 
provides us, I think, the critical opportunity to say even if, 
in this instance, with the help of Open 90 we find ourselves 
relatively well prepared when it comes to oil spills, I 
certainly can not testify before you that we are equally 
prepared to respond if it were a hazardous chemical other than 
oil. And we have had such incidents, but we have not had the 
structures through which we could ensure our preparedness. And 
with your historic legislation, I think we now have the 
occasion of the framework through which we can ensure we are 
prepared for those non-oil emergencies.
    Next, I would point to and underscore what Congresswoman 
Schwartz was talking about in highlighting that this was a 
single-hulled tanker. We would urge consideration of an 
acceleration of the phase-out date of those single-hull 
tankers. And I would just say as an aside here that this is an 
area where the environment and the economy would go together. 
An acceleration of the phase-out would bring new opportunities, 
new businesses to our ports, for example, to the Philadelphia 
naval yard where there is the capability to build those ships 
that would be double-hulled in nature and therefore provide 
further protections against this kind of emergency.
    Finally, I would come back to the issue, also, that 
Commissioner Campbell pointed to in natural resources damages. 
He covered well the liability issues. I would only point to the 
physical nature of what we are looking at here and counsel 
against a rush to judgment as to whether or not we understand 
the full impact on habitat and wildlife at this juncture. 
Submerged oil, among other issues, remains a serious concern, 
and it is our judgment that it will be at least a year and 
maybe two years before we really understand what the impact on 
habitat and wildlife is all about and can therefore take the 
necessary both legal and technical measures to restore those 
resources.
    Thank you, Mr. Chairman and Members of the Committee, for 
the opportunity to testify and again for your leadership and 
attention to these critical issues.
    Mr. LoBiondo. I thank you both for your insightful 
testimony. It gives us some good ideas here.
    Congressman Andrews, would you like to lead off the 
questioning this time?
    Mr. Andrews. Thank you, Mr. Chairman.
    I would like to welcome Secretary McGinty and Commissioner 
Campbell and thank them for their service. You can not 
represent this area in the United States Congress and not 
interact with both of you on a regular basis, and you each 
conduct yourselves with professionalism and great skill, and we 
are fortunate to have both of you. We really appreciate you. I 
especially want to say to Brad Campbell, you know, you can't be 
the DEP Commissioner in New Jersey and not be involved in 
controversy every single day. I personally appreciate the skill 
and foresight you brought to this job, and thank you for the 
great job that you do. I am just very pleased.
    There is a report that--from the Delaware Riverkeepers 
Network that they say that no booms were present at any time on 
the Pompeston Creek, the Pennsauken Creek, the Newton Creek, 
and the Cooper River. What do you think that says about the 
adequacy of the booming effort that took place after the spill?
    Mr. Campbell. Well, I would say, as I mentioned in my 
testimony, that clearly there needs to be a more concerted and 
immediate booming effort. I think what the Coast Guard followed 
in terms of standard practice, and you were asking for grades 
earlier, in standard practice they would have gotten an A, 
because it was assessed--take a period of time to assess and 
then proceed with booming. And so in the first days of the 
spill, that--in my sense, I think we had lost a little bit of 
time because that standard practice was followed. My sense is, 
on this river, where you have a six-foot tidal swing, a strong 
tidal current that is going to move the oil quickly, really the 
booming effort should begin immediately. It should be focused 
on started with the sensitive areas. And in order for it to 
proceed quickly enough, there needs to be more pre-positioning 
of material. So they lose time in actually getting the booming 
material to the scene.
    Mr. Andrews. So, Commissioner Campbell, you would recommend 
changing the protocol so there is a swifter response. And 
rather than an assessment first, you just get the booms out in 
the water more quickly? Did I hear that correctly?
    Mr. Campbell. Certainly in the immediate--the estuaries 
most approximate to the spill, on this river, putting other 
contacts to one side, where there is such a strong tidal swing, 
I think immediate booming is appropriate, yes.
    Mr. Andrews. And then I also understand your testimony is 
advocating sort of pre-positioning of booms in closer 
geographic proximity so we could have access to them more 
quickly, is that correct?
    Mr. Campbell. Exactly. Pre-positioning of the boom 
material, and then also closer maintenance. What we have done 
over the years, through our exercising with the Coast Guard and 
other agencies is to practice booming. And part of that is 
establishing in advance the anchor points for the booms. Some 
of those weren't fully available or useable when we went to use 
them this time, and so some closer attention to that also needs 
to be paid.
    Mr. Andrews. Madame Secretary, do you have anything to add 
as far as recommendations on this question?
    Ms. McGinty. I would just offer two thoughts. One is to add 
to the pre-positioning an enhanced and updated ecological 
assessment in these streams so that we have the latest 
information on what the resources are. And second, just by way 
of analogy, I think supportive of the comment, when it came to 
Philadelphia's drinking water resources, we did go ahead, 
working with the Philadelphia Water Department, and put in 
place protective measures, even before, as the Commissioner is 
articulating, the assessment was done. If we had waited until 
the assessment was done, we may not have taken that step 
because it looked like, in those assessments, the spill was not 
going to make its way up to those drinking water intakes. Now 
at the end of the day it didn't, but we immediately deployed 
enhanced carbon filtration and enhanced monitoring and testing. 
And probably, for ecological resources, as those human 
resources, we should probably do the same.
    Mr. Andrews. With respect to pre-positioning, where do you 
think the best locations might be for locating these resources 
more closely to the area?
    Mr. Campbell. Well, they are clearly going to be in areas 
in Salem and Cumberland County where we are going to want to 
pre-position right along the coast. I mean, from our 
perspective, assuming you can identify secure locations, the 
closer to the affected resource, the better, because you are 
just going to reduce deployment times. The same type of 
analysis is going to have to be done, obviously, for our 
counterparts in Delaware, where Secretary Hughes has some of 
the same concerns, and in Pennsylvania, obviously.
    Mr. Andrews. Thank you very much. Thank you, Mr. Chairman.
    Mr. LoBiondo. Congresswoman?
    Ms. Schwartz. Yeah. Thank you. Thank you very much. And I 
wanted to, first of all, thank you, Secretary, for reinforcing 
my line of questioning and my concern about the fact that the--
under Open 90, they didn't--we have not seen an increase in the 
limit on liability. And in this case, we know, from the 
previous panel, that we are going to need more than $45 million 
to not only clean up but remediate the situation we have in the 
spill. And so we already know that. I am--I appreciate the 
Chairman being willing to work with us to see if we can't get 
that CPI implemented and that liability increased. As you 
pointed out, and I was told in between the panels, it is 
possible even if the shipping company is now paying these 
costs, they could come back to the trust fund and say, you 
know, ``My liability was only $45.5 million. You have to 
reimburse me for the rest.'' That is a serious concern that 
those dollars will then be public dollars rather than be paid 
by the shipping company when they could. So I look forward to 
working with you on making that happen.
    I was also interested in your comments, and I think we need 
to understand both comments that what we know now may not be 
all we know in six months or a year from now, certainly from an 
environmental point. So that--my question is, going forward, do 
you have recommendations for the best way we can make sure that 
we have not only cleaned up the river, but also--and remediated 
the--any environmental impact? But then the issue of 
restoration on the--and the public impact going forward, this 
is a--could you speak specifically to what is the best way to 
make those assessments, and are--is that now in place?
    Ms. McGinty. I will just offer a couple of comments. Our 
biggest concern right now is submerged oil and oil that was 
immediately entrapped in sediments fairly quickly after the 
incident. My staff was sharing with me some of their own 
experience of digging into some of the sediments and finding, 
even if those top sediments were relatively clean, inches of 
oil just beneath that surface. So you can imagine, as the year 
progresses and we see that tidal action in the river, we might 
see a further re-suspension of some of that oil that is just 
temporarily trapped. That is one issue.
    Second, related but actually different, is the oil that 
essentially formed hockey pucks, if you will, balls of various 
sizes, and probably are further down in the water column. What 
we do not know right now is whether when the warm temperatures 
come back, will those temperatures be sufficient also to 
release or re-suspend some of that oil. So I guess what comes 
from that recommendation number one is after the immediate 
attention to this issue begins to fade, we need to find a way, 
nonetheless, to keep the spotlight, to keep the resources 
coming, and to keep the books open on this, because we have got 
a lot more to understand.
    Ms. Schwartz. Well, who is responsible for making sure that 
that happens, that we don't close the books on it?
    Mr. Campbell. Well, in--under OPA 90, NOAA is the lead 
federal trustee, and NOAA's job now is to lead a cooperative 
assessment effort that involves both of our agencies to assess 
the damage and to identify an appropriate restoration project. 
One of the difficulties of this type of spill is that some of 
the damage, either because it is beneath the surface or because 
the particular birds that were killed were never recovered is 
that there are always uncertainties. And the focus has to be on 
identifying and developing a significant restoration project 
commensurate with the damage. We know we will not replace the 
actual birds that were lost or the actual fisheries that may be 
affected, but we do know that there is going to have to be a 
significant restoration project to enhance the habitat to make 
the river whole through enhancement of the resources, even 
though the actual resource can't be replaced in total.
    Ms. Schwartz. The mayor of Valdez, Alaska wrote an 
interesting piece and talked about the fact that they 
developed--after that spill, they developed a Citizens' 
Advisory Council that did not exist before that played a role 
in keeping an eye on this and keeping an eye on what is now a 
good working relationship between the government authorities 
and the private sector, particularly the shipping company. But 
I guess I am going to ask the questions and maybe push the 
envelope a little bit on this, as a way of keeping public 
attention on this on an ongoing basis and apparently they 
continue well after the spill clean up to make sure that the 
public aspect of keeping the environment and keeping the 
waterway healthy and available both to commerce and recreation 
really works. Would you make a comment on whether you think 
that would be something we ought to encourage or even look at 
in some kind of citizen advisory council that could work 
specifically on maintaining the Delaware River, again for 
commerce, but also with good attention to the environment?
    Ms. McGinty. I would think that is an excellent suggestion. 
I think we have some wonderful organizations that can step 
right up and help. The Delaware Riverkeepers is certainly among 
the most effective of those, but when you look at the variety 
of entities that pitched in in this response, that gives you 
some of the list of those who could make an invaluable 
contribution.
    I want to just quickly come back to your comment, if I 
could. As you are looking at natural resources damages, I would 
offer three other things in addition to what the Commissioner 
has articulated. First, if you are looking at the liability 
structures under OPA 90 and potentially looking at some reforms 
there, expressly making it the case that natural resources 
damages are liabilities over and above and to which the 
responsible party is subject in addition to just, ``Here is the 
bill for clean up for getting the oily waste out of the 
river,'' et cetera, that that would be important.
    Second, to rearticulate the resources question in terms of 
when the spotlight is off, we still will need to be deploying 
people out there doing those damage assessments, and it is 
always harder once the emergency has gone.
    And third, I guess this comment goes to the difficulty 
actually of assessing natural resources damages. There is a 
tendency always to say put a dollar sign and be able to 
demonstrate exactly what the economic damage is in order to 
justify a claim against a responsible party. That is hard 
enough when you are talking about impact to physical structure 
or business. It is very, very difficult when you are trying to 
assess the value of intact habitat as opposed to destroyed 
habitat, healthy wildlife as opposed to impaired wildlife. And 
this is something actually that Commissioner Campbell and I 
have worked together over the years. I guess I would just urge 
that the Congress not require undue precision, if you will, in 
how NRD damages are calculated, because some things are just 
very difficult to put a dollar sign on. It does not follow the 
same structure as some of our other liability and recovery 
structures in other provisions of law.
    Ms. Schwartz. Thank you very much, and I look forward to 
continuing to hear from you as we move into the continued clean 
up and into the next phase, I think, which, as you point out, 
will take much longer. Thank you.
    Mr. LoBiondo. All right. Thank you.
    One of the things that we are very interested in attempting 
to determine through this whole unfortunate scenario is that 
the level of communication and cooperation between all of the 
various agencies is it what we hoped it would be. Is there 
something additional that you--either of you could suggest 
should have been done? And obviously we have come up with some 
ideas of Committee jurisdiction that seem necessary from a 
legislative standpoint that we are going to pursue. Are there 
any recommendations along these lines that you can suggest need 
to be strengthened by strong legislation?
    Ms. McGinty. I would have to say, Mr. Chairman, from our 
point of view, the communication structures did work well, that 
the NIMS system worked well. Having said to Congressman Andrews 
how well we also worked locally in taking that information from 
the Unified Command and making it available down the chain to, 
for example, the Philadelphia Water Department. I think 
internally we want to work on our own enhanced efficiency at 
dispatching that information. But overall, we thought the 
command structure work well efficiently and effectively to get 
the job done.
    Mr. Campbell. I would certainly concur on that assessment. 
I would identify a few areas where some thought needs to be 
given. First, in terms of early community meetings, we 
weren't--you know, in the exigencies of the spill, it took, I 
think, over a few weeks before we had the first, sort of, 
community-based meeting to get word out to the public, perhaps 
less of a problem in this case, because we are at the heart of 
the Philadelphia media market, a number of media outlets here, 
but in other contexts, and in terms of more remote communities, 
I think getting the word out, getting people understanding, I 
think that is one area where we might have done better, again, 
completely agreeing with Secretary McGinty's comment that the 
system worked. Communication was early, robust, and effective. 
And not just that there was communication, but that the Coast 
Guard consistently responded and promptly to concerns as they 
were raised.
    Second, I think this is a great example of the many 
volunteer organizations we have and the role they can play to 
look thoughtfully at ways in which the resources of a volunteer 
group like the Delaware Riverkeeper Network can be integrated 
into the response effort earlier, recognizing that, as a 
general, the actual response to oiling, the response to 
wildlife has to be done by professional, but using their eyes 
and ears on the ground more effectively, I think is another 
lesson we could learn.
    Mr. LoBiondo. Commissioner Campbell, I might ask you to do 
a little bit of speculation here, but I have a great deal of 
concern with our knowledge that 265,000 gallons were what was 
spilled and there is a little bit of a question mark as to 
exactly how much we have recovered, because some of it was a 
water mixture. We know, and you have talked a little bit about 
what is on the bottom. And Secretary, you mentioned that we are 
not sure what may happen when the temperature rises a little 
bit, but I think we are going to have to try to think about 
this to some degree and bring some varying of expertise on the 
issue because my big fear is that if temperature releases some 
of what is on the bottom, does it migrate to our beaches? Can 
you comment? Your thoughts? What can we do? Is there something 
from our perspective that we can focus on to pay more attention 
to this?
    Mr. Campbell. Well, obviously this is of paramount concern 
for me that we will be greeting Memorial Day and the advent of 
summer with additional reports of oil surfing--surfacing and 
potentially affecting our beaches. It is sobering to note that 
in the context of the Exxon Valdez oil spill, which 
Congresswoman Schwartz mentioned earlier, they are, to this 
day, discovering new pockets of oil that were not cleaned up. 
And I think one of the important elements is to recognize, in 
terms of the funding and the availability of whether it is from 
the responsible party or the fund that, as Secretary McGinty 
said, this is a response effort that is going to continue not 
just for months, but probably for years, if you include the 
natural resource damage assessment and restoration. And when 
you consider the Coast Guard testimony earlier that we are 
already at--over the $90 million mark, I think that gives--that 
should give the Committee a sense of scale in terms of how 
expensive it is to clean up oil after the fact and how the caps 
are really dwarfed by the cost of the response effort. But the 
focus of the Committee, and you, Mr. Chairman, have been 
tenacious in your oversight in ensuring that the funding and 
response resources continue to be there in the ensuing months 
will be critical.
    Mr. LoBiondo. Well, we certainly want to keep in very close 
contact. The conclusion you draw tomorrow or next week about a 
particular course of action that we have to pursue with what we 
think is still left on the bottom from participation from an 
outside source or from within your own framework, we certainly 
want to react very quickly to that. I share your great fear of 
what lies ahead with all of that oil that is not recovered.
    Congressman Andrews, any follow up?
    Mr. Andrews. No, thank you.
    Mr. LoBiondo. Congresswoman, any follow up?
    Ms. Schwartz. No.
    Mr. LoBiondo. No? I thank you both very much. We will take 
a short break to move to the third panel.
    [Recess.]
    Mr. LoBiondo. Let us move to the third panel. And before we 
do that, we have--some groups that asked to participate today 
that we weren't able to accommodate through the panel, they are 
certainly a very important part of the partnership that we are 
putting together. And the Delaware Riverkeeper and also the 
Partnership for the Delaware Estuary has submitted testimony, 
which I would like to ask unanimous consent to be submitted 
into the record. Without objection, I will so order that.
    And now we move to the third panel. I am very pleased that 
we have Mr. Dennis Rochford, who is President of the Maritime 
Exchange for the Delaware River and Bay Authority, and Mr. Eric 
P. Stiles, who is the Vice President for Conservation and 
Stewardship for the New Jersey Audubon Society. Thank you both 
for being here, and Dennis, if you would start off, please.

TESTIMONY OF DENNIS ROCHFORD, PRESIDENT, MARITIME EXCHANGE FOR 
THE DELAWARE RIVER AND BAY; AND ERIC P. STILES, VICE PRESIDENT 
  FOR CONSERVATION AND STEWARDSHIP, NEW JERSEY AUDUBON SOCIETY

    Mr. Rochford. Thank you. Thank you, Mr. Chairman and 
Members of the Committee, and for your leadership on this and 
so many other issues that impact the ports along the Delaware 
River.
    The Maritime Exchange is a trade association representing 
almost 300 port businesses in Southeastern Pennsylvania, South 
Jersey, and Delaware. We basically function in two ways: we act 
as the Chamber of Commerce of the Delaware River, we are an 
advocate primarily with federal agencies in Washington, DC 
representing the interests of a port community from the Coast 
Guard to the Corps of Engineers, Customs, and other agencies. 
We have an operating responsibility in that we operate Maritime 
On-Line, which is the electronic communications hub of the 
Delaware River capturing all--an Internet-based system that 
captures all of the vessel, cargo, and crew list information 
for the 2,600 vessels that come up the Delaware River.
    Let me, first of all, submit--I am not going to read it, my 
testimony for the record, copies of which were sent to your 
Committee last week.
    Let me just make a couple or three points, and having had 
the opportunity to listen to a lot of the testimony here 
earlier, not be repetitive and try to hit on what the impact is 
with respect to the maritime industry, port businesses, the men 
and women that bring the ships up the river, the longshore 
workers and everybody else whose income depends on this river: 
$4 billion a year in terms of economic revenues to the region, 
75,000 employed people, $1.5 billion in wages and salaries and 
almost $150 million in state and local taxes. So this is 
significant to the regional economy.
    We indicate that the Exchange's role was really one of a 
facilitator and communicating, if you will, between the various 
federal agencies and port agencies that were involved in the 
initial phases of the containment and clean up. We worked 
closely with the Coast Guard, the Corps of Engineers, the 
Pilots Association, the Mariners Advisory Committee. And our 
goal, if we had one goal, was, A, to facilitate what they were 
doing, but secondly to make sure that the port operators and 
port customers had accurate information. Somebody mentioned a 
few minutes ago the world we live in today with CNN news and 
the media, as we have it today, and this oil spill was being 
listened to and read about throughout the world. And our 
concern was that the port customers, the people that bring 
their cargoes through our port, had accurate information with 
respect to the status of the spill, the status of the clean up, 
and as we moved very quickly in the initial stages, Sunday 
through Monday or Tuesday, as the port began to open up and as 
vessels began to move in and move out, that is the information 
that we needed to get to our port customers.
    Let me make a general comment with respect to the economic 
impact. Significant. I don't think anybody has got a number 
today that can tell you what the cost is of this spill. I think 
you can say it is in the tens of millions of dollars. And let 
me cite just a couple of specific examples I have with respect 
to either real or potential costs. We are an niche port.
    I am going to reference three specific cargo commodities. 
One is oil, crude oil. The six oil refineries that operate on 
this river operate with very strict crude oil inventory 
requirements. And what that means is if there was, in fact, an 
extended closure of this port over a period of time, it would 
directly impact the second largest refining complex, the United 
States of America, and in terms of home heating oil and 
gasoline and jet fuel and all of the other products that they 
produce to support the economy in the mid-Atlantic and New 
England regions and beyond would be put in jeopardy. One of the 
reasons that we are happy in terms of the quick response to get 
the port opened up can be measured by that impact.
    Secondly, the Delaware River, in both Philadelphia, Camden, 
and Wilmington, we bring in over 65 percent of all of the South 
and Central American fruit that comes into the United States of 
America. It is a perishable commodity. We are the largest 
banana port in the United States of America. Del Monte, as an 
example, over in Camden, had they been delayed another day, it 
would have cost them close to $7 million in terms of the cost 
of destroying the cargo, the bananas and the Chilean fruit. 
That didn't happen, but they did experience a $30,000 cost for 
standby labor. One of the challenges when a port is closed down 
or the scheduled vessel's arrival is disrupted, the terminal 
operators, the people that have the responsibility to offload 
those ships, have to go and get labor, and if that labor has to 
wait and they have to bring in another crew, well, there is a 
direct cost there.
    The other commodity I would mention briefly is steel. Very 
important on this river. We used to handle 4 million tons a 
year, almost 400 ships. The economy went soft. The 201 tariffs 
went in place, but over the last 18 months, the line is going 
up, the tonnage is going up, the number of ships is going up. 
That is good for the port. We only had two or three ships that 
were diverted from this port to another port, and one of those 
ships was a steel ship destined for Penn Terminals in Chester, 
and the cost to Penn Terminals, as well as the labor cost, was 
close to $50,000.
    Let me give you one other statistic. The cost to operate a 
ship ranges anywhere from $30,000 to $40,000 a day for general 
cargo, steel ships all of the way up to $250,000 a day for the 
modern VLCC and tankers. If you are to take our average 
weekend, which it was, with 20 ships in port, on a daily basis, 
we are talking about $650,000 to $1.3 million in costs because 
of delays that occurred or the potential of delays, if they 
were to occur.
    Let me--if I might, I am a minute over my limit here, let 
me make two points in terms of lessons learned. One, it is on 
industry. I--and I want to compliment the Coast Guard and the 
Corps and everybody, the Pilots Association, Mariners Advisory 
Committee as they came together in the Unified Command to make 
the decisions, A, to contain the spill, B, to get the clean-up 
operation going, and C, to open this port up to--for commercial 
use. But the bottom line is that we--I think that we were 
effective in getting information out, but we, as a port 
community, and I know there have been discussions here amongst 
other witnesses with respect to, you know, coordinating our 
efforts, we need to continue to improve communications. In this 
marketplace, in this global marketplace today, we can't have 
bad information going out around the world with respect to what 
is going on in the Delaware River, and we, as industry, which 
we demonstrated through this spill, working with government, 
need to enhance on that effort.
    And I will conclude with something that is relevant, not 
particularly specific to this incident, but relevant in 
listening to the testimony. I listened to it earlier. The 
bottom line is, it is a federal responsibility to keep federal 
channels and anchorages over. And in my view, this 
Administration and previous Administrations have shortchanged 
that commitment. And I want to cite the numbers for fiscal year 
2005. The Administration recommended $4.1 billion for civil 
works in the Corps of Engineers, and the Colonel addressed some 
of those expenditures. The Congress, always a little bit more 
sympathetic to our efforts here, appropriated $4.7 billion. The 
American Association of Port Authorities indicate, for fiscal 
year 2005, to meet just the bare minimum. Civil works 
requirements for the Corps of Engineers is $5.5 billion.
    I would say the same with NOAA. We have been fighting hard 
here for the last couple of years. We have a port system in 
place, Physical Ocean Real Time System, which provides real 
time tidal and atmospheric information that is available to the 
captains and the pilots as they bring the ships up the river. 
We have been fighting for 3 years. We got $750,000 out of the 
Delaware River Port Authority to put that system in place. The 
operating cost is about $250,000 a year. There are 13 systems 
like that around the United States, and we are trying to get $3 
million appropriated in the NOAA budget to maintain systems. 
And again, like the Corps of Engineers and like the Coast 
Guard, this NOAA system is all part of the federal 
responsibility to keep those channels open. And everybody 
bringing ships up the river is paying taxes into the Federal 
Treasury. And if we can take care of the highways and railroads 
and airlines, we need to take care of our port system.
    I hate to use this situation as an example to make that 
statement, but it is so very important to this port and to the 
ports around the United States.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you, Dennis.
    I might note that I have had the pleasure of working with 
Dennis for a number of years now, basically on port security 
and maritime anti-terrorist measures, and I thank you for all 
of the time and energy you have put in to helping us understand 
the impact of the maritime industry.
    Eric, thank you very much for joining us today. Please 
proceed with your testimony.
    Mr. Stiles. Thank you, Mr. Chairman.
    My name is Eric Stiles. I am testifying today on behalf of 
New Jersey Audubon Society and our 22,000 members in New 
Jersey. First of all, I would like to thank the Chairman for 
inviting me to speak today.
    I worked as an endangered species biologist with the New 
Jersey DEP for a decade working to recover the wildlife species 
on the lower Delaware River and Delaware Bay for nearly a 
decade, so I am intimately aware of what is at stake here.
    My immediate visceral response, looking at the evening news 
was as if I had lost a good friend, knowing how much is at 
stake to the quality of life and public safety in this region 
and what can be disrupted through a single tragic event.
    New Jersey Audubon Society was impacted at two levels. 
First of all, we have been supporting wildlife conservation 
since 1897. And second, we actually own two islands in the 
Delaware River, just down river from the spill, Chester and 
Mahn's Islands, so we are an affected landowner and can offer 
insights through those two different vantage points.
    First of all, they impacted, I guess, our Nation's symbol: 
bald eagles. Again, we had one remaining in New Jersey from 
1972 to 1984. Hundreds of thousands of hours of volunteer time, 
primarily from citizens, has jump-started the population in New 
Jersey. There were several pairs within the active zone, 
including one at Mahn's Island that nests on top of a 110-foot 
tall Eastern Cottonwood tree. It is absolutely amazing. It 
looks like a Volkswagen parked in a deciduous tree.
    Now the tale of Mahn's Island can be told time and time 
again. The pair perennially fails because of PCB contaminants. 
Again, we are looking at an industrialized area that has 
contamination issues. Each year, the pair failed, they would 
relocate in the state's endangered species program, and Elmer 
Klegg, the volunteer, would work with the landowners tens of 
thousands of hours to minimize disturbance. Now in 1996, a 
corporation, DuPont, approached New Jersey Audubon Society and 
the state, and the partnership went as follows: if you accept 
this land as a wildlife preserve, would the state step up to 
the plate and every year bring in an orphaned eaglet for the 
pair to raise. Since that time, that pair has successfully 
fledged young. The New Jersey Audubon Society has accepted 
ownership and responsibility for the island. The state, and 
their incredible biologists, have stepped up to the plate with 
the orphaned eaglet, and Elmer Klegg is donating tens of 
thousands of hours as, still, the pair's guardian ambassador.
    This time spent, these volunteers, this love and quality of 
life, can be told time and time again from the Delaware River 
and lower Delaware Bay. Congressman Andrews and Congressman 
LoBiondo have been real champions in forwarding the protection 
of these. We know what is at stake. A single tragic event can 
disrupt that.
    Now we know that the Delaware River and estuary is a multi-
use complex, from commerce, it is very important for commerce, 
to recreation. In 2001, 1.64 million residents in New Jersey 
and 688,000 residents watched wildlife, spending $1.24 billion. 
People that hunt and fish spent another $1 billion. It is a 
fundamental quality of life for why people live there. I have 
lived in South Jersey for 30 years, recently exported to North 
Jersey, but South Jersey will always be my home. I love the 
area because of the wildlife. It is also very important for 
public drinking water. Only one industry, that is the transport 
of oil and other hazardous materials, has the ability to 
compromise all other interests and public safety on that 
complex.
    And I would say that the famous American historian, Arthur 
Slessinger, was right: ``History has an eerie way of repeating 
itself.'' If I were a betting man, my money would be that there 
is going to be another oil spill. But what can we do to take 
upon the successes of this response, identify areas for reform, 
and move forward? And I think that is the question before us 
today.
    Now first of all, I need to thank the New Jersey delegates, 
specifically Congressman LoBiondo, Andrews, Senators Korzon and 
Lattenburg for their leadership effort. We fed information from 
our members directly to the Congressional delegates about areas 
that were not being protected, and it was the Congressional 
participation in the process that I think really stepped up the 
reflexive booming, if you will, to which Commissioner Campbell 
spoke.
    Second, New Jersey DEP and U.S. Fish and Wildlife Service 
staff biologists did an exemplary job working with non-profits. 
In fact, we had close to 100 of our members participating as 
expert avian monitors to assess the damage. And really, it is 
counting heads. Unfortunately, many of these birds that were 
oiled were never captured and go on to die. But that is part of 
the natural resource damage assessment.
    Third, Tri-State Bird Research and Rescue, again, they are 
not here today, but they are an international expert in 
cleaning up and responding to oil spills. They deserve great 
praise.
    And last, the U.S. Coast Guard and NOAA, again, I worked on 
a boat for a day from Mantua Creek to Commodore Barry Bridge. 
The men and women of the Coast Guard Service deserve great 
accolades for the performance they underwent I think under some 
very difficult times and tasks. My observation is they don't 
have the resources they need to do their jobs. So any reform 
that I posit is not based upon the individual performance of an 
individual, but rather I think the failure of the system.
    Now the four areas that I would posit for reform. First of 
all, reduce the likelihood of further spills. I think this is 
going to be repeating some of the wisdom we heard previously. 
First of all, the shipping channel, we heard there are 
additional technologies that can and should be used, whether it 
is a magnetometer, wire survey drag, side-scanning sonar, and I 
think Congressman Andrews, in his question, helped me 
understand that technology better, should be in play here, and 
they require the appropriate appropriations to fund that. 
Again, a vision with no funding is a hallucination, so if we 
have plans here but not the means to implement those plans, I 
can not blame the agencies responsible with that charge.
    Second, the minimum depth clearance should be examined. I 
think that has been raised time and again. Allegedly, the ATHOS 
hole rupture occurred at a low tide. Again, if you look at the 
differentiation between the draft of these craft that are under 
significant weight loads and the bottom of the channel itself, 
you want to increase that, so perhaps only allowing them to 
operate at a mid to high tide, especially the single-hull 
design, would be advantageous.
    Let us look to get rid of the single-hull craft before 
2015. That is a significant risk factor in what is at stake 
with this. I think responsible parties, that is responsible 
companies using double-hull craft, should be rewarded. If you 
are a company that is investing in a double-hull, you should 
have an incentive to bring that to this port. Conversely, if 
you have a single-hull, I think there should be an additional 
port fee. If you are coming in, and you are posing this 
additional risk hazard, this port fee should go into a 
dedicated fee that goes to both increase our preparedness for 
oil spill as well as to fund the natural resource damage from 
it.
    Second, and I just drew this number out of a hat, but I 
know that the $45 million liability threshold is grossly 
insufficient. As we have heard today, I think it was $92 
million. The company can go back to OPA? The risk and the 
damages are being assumed by a dwindling pool of money that is 
coming from taxpayers. I think $150 million or $200 million 
might be more in the ballpark of that liability ceiling that 
needs to be set.
    Third, we need to improve the efficacy of the oil response 
effort. Again, I can not fault NOAA and the Coast Guard, but 
they did not have the data. I know of three bald eagle 
locations that Congressman LoBiondo, in particular, was helpful 
in getting that to the Coast Guard. Our attorneys did 
participate in the Unified Command center. Mahn's Island bald 
eagle nest, which has been there since '96, was not on the NOAA 
and Coast Guard inventory. The important information about 
Mannington Meadows was not on the NOAA and Coast Guard 
inventory. I think that this Committee needs to look at 
providing sufficient appropriations to allow the data from the 
federal and state wildlife and fish agencies to be provided to 
NOAA and the Coast Guard to be updated annually.
    Lastly--I am sorry. Two additional responses. Again, 
reflexive booming, that Commissioner Campbell talked about, the 
booms were following the leading edge of the oil slick. This 
was before the massive wind event. The massive wind event, I 
think, started November 30 and then went into December 1. 
Mannington Meadows is one of the largest staging grounds for 
waterfowl on the eastern flyway. There was no boom in place. 
Getting those anchor points also in place ahead of the spill, I 
think, is critical, as we heard from Commissioner Campbell, 
whether they are absent or in disrepair. Getting them in place 
and maintained over a regular cycle is critical.
    Lastly, when I was looking at the Oil Pollution Act of 
1990, there is a provision called Title V, the Prince William 
Provision. Under that provision, the visionary legislation 
established a body of federal, state, academic, and 
conservation agencies and local citizens with backgrounds in 
commerce, fisheries, wildlife, public health and safety, and 
education. That body worked and would work in this case to 
better protect natural resources and public health and safety 
on the Delaware Bay while still accommodating a functioning 
port. Most importantly, as someone that worked in the 
government both at the National Park Service and DEP for 10 
years, this body would cut through the interagency red tape by 
establishing a council with a clear mandate and goal. So I 
think that what Congresswoman Schwartz referred to is there a 
need to create this, a citizens council, I think not only is 
there a gross need here, but there is some exciting precedent 
under existing legislation, the Oil Pollution Act of 1990.
    We look forward to working with this body. I think one 
additional opportunity for this body is to work with federal 
appropriators to look at land and water conservation funds. I 
know that there is almost no dollars now for acquisition 
through the federal side, but to protect and enhance these 
critical fish and wildlife locations on all three sides of the 
bay, including Pennsylvania.
    Thank you for your time.
    Mr. LoBiondo. Thank you both.
    Allison, do you want to start off?
    Ms. Schwartz. Sure. Thank you. I just have two questions, 
but I have one for Mr. Stiles, and I thank you for your, in 
some ways, summary of the things that we ought to be looking at 
and moving forward on. Do you have an assessment of the effect 
broken down by state, how much an effect we have seen from the 
environmental point of view in Pennsylvania?
    Mr. Stiles. That is, I think, a very good question. I think 
it is an interesting question posed to an organization that is 
focused on a state. When I look at the Delaware Bay and 
estuary, to me, it is--I could care less about the political 
boundaries. It is very important, I think, for the 
Congressional delegates to know the impact to their 
constituents. When you look at the lower Delaware River and 
Delaware Bay, it is one complex. To answer your question, I 
haven't seen any assessment broken down by political 
boundaries. I think it is a fair question that could be posed 
to your state agencies.
    But again, when you look at the submerged oil, it is what 
we don't know that is really scary. We have the largest 
concentration of shorebirds in all of North America. Again, 
Commissioner Campbell is concerned with May 31. I am really 
scared come late April, because that is when the shorebirds 
start coming up. If you talk about the reintegration of this 
oil, the spawning horseshoe crabs. It is the largest, globally, 
population that we have. It is critical for fisheries. So I 
applaud the federal participation, because this is a federally 
shared resource. We are talking about commerce. We are talking 
about migratory species. So I think that the Congressional 
delegates are to be commended for working so closely on a 
comprehensive solution.
    Ms. Schwartz. Maybe it is a good thing that we haven't 
actually broken it down by state so that we have accepted it as 
a shared responsibility and recognize the fact that the 
Delaware River does affect all three states pretty 
dramatically, and working together maybe is the way to go. I 
shouldn't ask for it being broken down. I was curious, though, 
that no one has broken it down that way, either in terms of 
impact or cost, but thank you for your comments.
    My only--my other question, Mr. Rochford is there an effect 
going forward in whether any of the shipping companies might 
say I might not come to the port here because of potential for 
a spill, or is this seen as a one-time impact and there isn't 
necessarily a negative effect going forward? I was just curious 
about whether you have to deal with, sort of, damage control 
going forward in a--maybe a more attitudinal--or if we don't 
take certain steps, will they say, well, it is a risk I don't 
want to put my vessel in, even if I don't carry oil or 
particularly if I do, are they not doing enough to make sure 
that I won't end up spilling the oil? Obviously, they don't 
want to--
    Mr. Rochford. Right.
    Ms. Schwartz. So are you getting questions from some of the 
oil shipping companies saying what are you doing now going 
forward, or any of the other shipping companies that bring in 
fruit, for example? Are they saying wait a minute, at $30,000, 
$40,000, or $50,000 a day, that is a big hit for me. I am not 
willing to do it in the future.
    Mr. Rochford. Well, a couple comments or observations. 
Number one, I think those ship owners, charters, and very 
importantly, cargo owners, they are the ones that really drive 
this equation, I think looked at how this situation was handled 
from Sunday through Monday or Tuesday. And the ability to begin 
to start to move vessels as early as Sunday indicated that, you 
know, we were open for business. And moving forward for that--
from that point of view, if you get to Tuesday, Wednesday, or 
Thursday of that week, when the Captain opened the port up 24/
7, there was a quick ramp up. And to my earlier comments in why 
the Coast Guard and the Pilots Association and the Maritime 
Exchange put out two, or possibly three, statements, was to lay 
those concerns. I think that is a very good question going 
forward, and let me, as an example--and I don't think we are 
there yet, but let me, as an example, give you a scenario where 
I think there is long-term impact, and I think they have 
suffered from it over the last year and a half or 2 years and 
continue to suffer, and that is when the West Coast struck and 
shut down all of the ports in California and Oregon and 
Washington. We see, today, because of that, a diversion of--and 
not just because of that reason, but that is something the 
people talk about in the industry. We see a diversion of those 
cargoes, including container ships, coming to Gulf, South 
Atlantic, and some North Atlantic ports.So what we need to 
avoid, and I think how this incident was handled, I would also 
add the fact that there is Congressional interest in what can 
we do to make sure it doesn't happen again demonstrates that we 
are taking the kind of prudent steps that a cargo owner or a 
ship owner or operator would want us to take. But we can never 
let our guard down on that.
    Ms. Schwartz. Well, I thank you. Those were my only 
questions. Thank you for your testimony.
    Mr. Rochford. Thank--you are welcome.
    Mr. LoBiondo. Congressman Andrews?
    Mr. Andrews. Thank you. And I would like to thank both 
witnesses. It is very encouraging to hear the level of 
cooperation between the business community, port community, and 
environmental community on this issue, and it is heartening.
    Dennis, if I may, I wanted to ask you a question. You 
estimate the daily cost to operate a ship being $25,000 to 
$40,000 in the low end for a general cargo ship daily up to 
$250,000 a day for the post-Panamex class ships. What is a fair 
estimate of the cost of operating one of the tankers, like the 
one that created this problem?
    Mr. Rochford. Well, it is not in the $250,000 range. They 
are the larger VLCCs, the ones that are coming on line now. I 
would just be guessing, but I am going to indicate it is 
probably somewhere in the $50,000 to $100,000 range, but I can 
get you that answer. I don't have that information--
    Mr. Andrews. Yeah, I mean--
    Mr. Rochford. --at my finger--
    Mr. Andrews. --I am just really interested in a range.
    Mr. Rochford. Yeah.
    Mr. Andrews. I am interested in Eric's suggestion about 
pursuing the idea of the minimum clearance. I have heard some 
very experienced voices in the community talk about this as 
well. If we adopted a policy that would not let these oil ships 
up the river until the tide had reached a certain point above 
low tide, what kind of cost impact does that have on the 
operation of that ship? Is it--is this $75,000 or so broken 
into 24 equal parts, so if it waits three more hours, it adds 
1/8 to the cost? Do you following my reasoning? Does it work 
that way?
    Mr. Rochford. Well, it would work a couple of ways. Number 
one is whatever the operating cost is, I am sure you can take 
it and divide by 24.
    Mr. Andrews. Yeah.
    Mr. Rochford. But in the supply chain or, if you will, the 
transportation chain coming up the Delaware River--
    Mr. Andrews. There are costs, I am sure.
    Mr. Rochford. There are any number of scheduling issues in 
consideration as well as the cost of the facility in terms of 
the inventory that they require. Let me say has been always the 
discussion about how much water is under the--I think the other 
point worth noting here is the level of sophistication that we 
have in place on the Delaware River to move vessels up the 
river, whether it is a fruit ship or an oil tanker. The Pilots 
Association has invested millions upon millions of dollars in 
the last 5 years and before that in enhanced radar down at the 
Bay, the Delaware Bay. They have invested, if not millions, 
hundreds of thousands of dollars in GPS capabilities, so every 
pilot that gets on a ship in this river knows exactly where 
they are in the channel and they also know who else is around 
them. Every four years, every licensed--first-class licensed 
pilot is--goes off for training and retraining. So in--from our 
vantage point, from industry's vantage point, you know, if you 
are running a port, deeper water is always better. That is why 
I support the 45-foot channel. But--
    Mr. Andrews. Oh, I didn't know you supported it.
    Mr. Rochford. I had to get it in. You know I had to get it 
in. But I believe we have--and take that a step back to--you 
could say, well, Rochford, that is your judgment about the 
pilots. Well, okay, it is. But I will tell you whose other 
judgment it is. It is the people that are bringing those ships 
up the Delaware River, the captains, the owners, and the 
charters. And I would conclude by getting back to the other 
point I made, and that is there needs to be a clear acceptance 
of the fact that keeping the water at 40 feet is a federal 
responsibility in this case, and I think there needs to be a 
level of confidence that industry, from the tug operators to 
the pilots to the ship masters and everybody else in the Coast 
Guard that has responsibility to bring that vessel up or doing 
the right job.
    And very quickly, the other thing that we do have in place 
is the port system. And I believe the funding for this year to 
keep that system up and operational came through Pennsylvania. 
But we still believe that is a federal responsibility.
    Mr. Andrews. Yeah. I want to say, for the record, I agree 
with you. The pilots do an outstanding job. Without them, the 
river doesn't work. They are indispensable. I trust their 
judgment on these things, and I think they do a great job. I 
think one of the stories here is how many problems are avoided 
because of their skill in the work that they do.
    Mr. Rochford. I agree with that.
    Mr. Andrews. I just want to explore Eric's point a bit that 
if it costs $70,000 a day to run one of these, and if there is 
a fair relationship of, you know, 1/24 for each hour, and if 
you wait 3 or 4 hours for the tide to get a bit higher, you 
know, you are talking about 12 or 15 percent of the cost, which 
is $14,000, $15,000, $16,000. Now I understand there is--there 
are costs on shore. There are scheduling issues at the 
refineries, there are trucking issues, and so forth, that that 
doesn't capture the full cost, but I venture to say there isn't 
anybody here who wouldn't be in favor of having expended 
another $20,000 or $30,000 on November the 16th to wait the few 
hours, if that would have avoided this problem. Maybe one of 
the ideas that we could pick up on what Eric talked about was 
that if ships have very sophisticated technology that would 
identify a hazard, maybe they don't have to go by these minimum 
standards, but if they don't, they should, particularly when it 
comes to oil. I am just--I am interested in exploring that 
concept further.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Okay. Thank you, Rob.
    Dennis, I understood correctly that the shipping industry 
was involved with representation to manage the vessel traffic 
when all of this was taking place?
    Mr. Rochford. In the what? Excuse me?
    Mr. LoBiondo. In managing the vessel traffic for the port, 
did the Coast Guard include--
    Mr. Rochford. The vessel traffic system?
    Mr. LoBiondo. Did the Coast Guard include the shipping 
industry?
    Mr. Rochford. Oh, absolutely.
    Mr. LoBiondo. Yes.
    Mr. Rochford. Oh, absolutely.
    Mr. LoBiondo. Okay.
    Mr. Rochford. As the Captain mentioned, Captain Linton was 
part of the Unified Command--
    Mr. LoBiondo. Okay.
    Mr. Rochford. --on day one, and we were engaged and our 
time was exchanged through the weekend in getting information 
out. I didn't spend a lot of time over at the Unified Command, 
but any number of industry representatives were there.
    Mr. LoBiondo. I want to take just a moment, although he 
wasn't on the panel. His name has been mentioned a couple of 
times. Captain Mike Linton is here today. Captain, we thank you 
for your expertise and your help in so many different areas 
that we work with that are of critical importance to the 
maritime industry.
    Eric, I wanted to pursue for just a minute a concern that 
Mannington Meadows and the bald eagle's nest were not on a 
critical list. We are going to have to explore how that 
information is updated, but I assume that it is safe to assume 
that we would expect that you would be willing to help out if 
there is a role that you can play in verifying the information 
or helping to update what we already have?
    Mr. Stiles. Yes, Chairman.
    Mr. LoBiondo. Okay.
    Mr. Stiles. I think, again, when I worked for the DEP, we 
updated our base annually, and I did exchange that with the 
U.S. Fish and Wildlife Service. It would seem that those two 
agencies--that information is not being transported or 
communicated at that same time interval with NOAA and with the 
U.S. Coast Guard. Any help that we can have--offer in 
supporting that and if a general, whether a council is formed 
regarding the Delaware Bay and taking a look at some of these 
issues, broader issues, we would love to help support.
    Mr. LoBiondo. Sure. I just didn't want to make any false 
assumptions there.
    Well, I would like, at the conclusion, to thank my 
colleagues for joining me today. I would like to thank Seaport 
Museum for hosting us today and all of the panel members. I 
think that while we have had some answers that were given, we 
had, maybe, many more questions that were raised, and I will 
assure you that we will be following up with specific 
suggestions that we know we can move on legislatively sort of 
in a quick manner. And we will be looking, although we haven't 
set the dates, we were anticipating that we would have to have 
additional hearings, and we certainly will be following up on 
that. So once again, I thank everyone, and the hearing is 
adjourned at 12:40.
    [Whereupon, at 12:40 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T0869.001
    
    [GRAPHIC] [TIFF OMITTED] T0869.002
    
    [GRAPHIC] [TIFF OMITTED] T0869.003
    
    [GRAPHIC] [TIFF OMITTED] T0869.004
    
    [GRAPHIC] [TIFF OMITTED] T0869.005
    
    [GRAPHIC] [TIFF OMITTED] T0869.006
    
    [GRAPHIC] [TIFF OMITTED] T0869.007
    
    [GRAPHIC] [TIFF OMITTED] T0869.008
    
    [GRAPHIC] [TIFF OMITTED] T0869.009
    
    [GRAPHIC] [TIFF OMITTED] T0869.010
    
    [GRAPHIC] [TIFF OMITTED] T0869.011
    
    [GRAPHIC] [TIFF OMITTED] T0869.012
    
    [GRAPHIC] [TIFF OMITTED] T0869.013
    
    [GRAPHIC] [TIFF OMITTED] T0869.014
    
    [GRAPHIC] [TIFF OMITTED] T0869.015
    
    [GRAPHIC] [TIFF OMITTED] T0869.016
    
    [GRAPHIC] [TIFF OMITTED] T0869.017
    
    [GRAPHIC] [TIFF OMITTED] T0869.018
    
    [GRAPHIC] [TIFF OMITTED] T0869.019
    
    [GRAPHIC] [TIFF OMITTED] T0869.020
    
    [GRAPHIC] [TIFF OMITTED] T0869.021
    
    [GRAPHIC] [TIFF OMITTED] T0869.022
    
    [GRAPHIC] [TIFF OMITTED] T0869.023
    
    [GRAPHIC] [TIFF OMITTED] T0869.024
    
    [GRAPHIC] [TIFF OMITTED] T0869.025
    
    [GRAPHIC] [TIFF OMITTED] T0869.026
    
    [GRAPHIC] [TIFF OMITTED] T0869.027
    
    [GRAPHIC] [TIFF OMITTED] T0869.028
    
    [GRAPHIC] [TIFF OMITTED] T0869.029
    
    [GRAPHIC] [TIFF OMITTED] T0869.030
    
    [GRAPHIC] [TIFF OMITTED] T0869.031
    
    [GRAPHIC] [TIFF OMITTED] T0869.032
    
    [GRAPHIC] [TIFF OMITTED] T0869.033
    
    [GRAPHIC] [TIFF OMITTED] T0869.034
    
    [GRAPHIC] [TIFF OMITTED] T0869.035
    
    [GRAPHIC] [TIFF OMITTED] T0869.036
    
    [GRAPHIC] [TIFF OMITTED] T0869.037
    
    [GRAPHIC] [TIFF OMITTED] T0869.038
    
    [GRAPHIC] [TIFF OMITTED] T0869.039
    
    [GRAPHIC] [TIFF OMITTED] T0869.040
    
    [GRAPHIC] [TIFF OMITTED] T0869.041
    
    [GRAPHIC] [TIFF OMITTED] T0869.042
    
    [GRAPHIC] [TIFF OMITTED] T0869.043
    
                                    

</pre></body></html>
